<html>
<title> - TRANSFORMING THE NATIONAL GUARD: RESOURCING FOR READINESS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





       TRANSFORMING THE NATIONAL GUARD: RESOURCING FOR READINESS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 29, 2004

                               __________

                           Serial No. 108-188

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-597                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
              Grace Washbourne, Professional Staff Member
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 29, 2004...................................     1
Statement of:
    McHale, Paul, Assistant Secretary of Defense for Homeland 
      Security, U.S. Department of Defense; Thomas F. Hall, 
      Assistant Secretary of Defense for Reserve Affairs, U.S. 
      Department of Affairs; Lieutenant General H. Steven Blum, 
      Chief, National Guard Bureau; and Major General John A. 
      Love, Special Assistant to Combatant Commander for National 
      Guard Affairs, U.S. Northern Command.......................   334
    Pataki, George E., Governor, State of New York...............     6
    St. Laurent, Janet A., Director, Defense Capabilities and 
      Management, U.S. General Accounting Office; Lieutenant 
      General Wayne D. Marty, Adjutant General, State of Texas; 
      Major General Timothy J. Lowenberg, Adjutant General, State 
      of Washington; and Major General Bruce F. Tuxill, Adjutant 
      General, State of Maryland.................................   117
Letters, statements, etc., submitted for the record by:
    Blackburn, Hon. Marsha, a Representative in Congress from the 
      State of Tennessee, prepared statement of..................    28
    Blum, Lieutenant General H. Steven, Chief, National Guard 
      Bureau, prepared statement of..............................    81
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................    32
    Hall, Thomas F., Assistant Secretary of Defense for Reserve 
      Affairs, U.S. Department of Affairs, prepared statement of.    55
    Harris, Hon. Katherine, a Representative in Congress from the 
      State of Florida, prepared statement of....................   274
    Love, Major General John A., Special Assistant to Combatant 
      Commander for National Guard Affairs, U.S. Northern 
      Command, prepared statement of.............................    93
    Lowenberg, Major General Timothy J., Adjutant General, State 
      of Washington, prepared statement of.......................   172
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............   276
    Marty, Lieutenant General Wayne D., Adjutant General, State 
      of Texas, prepared statement of............................   153
    McHale, Paul, Assistant Secretary of Defense for Homeland 
      Security, U.S. Department of Defense, prepared statement of    37
    Pataki, George E., Governor, State of New York, prepared 
      statement of...............................................    10
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........    22
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    St. Laurent, Janet A., Director, Defense Capabilities and 
      Management, U.S. General Accounting Office, prepared 
      statement of...............................................   119
    Tuxill, Major General Bruce F., Adjutant General, State of 
      Maryland, prepared statement of............................   252

 
       TRANSFORMING THE NATIONAL GUARD: RESOURCING FOR READINESS

                              ----------                              


                        THURSDAY, APRIL 29, 2004

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Tom Davis of Virginia 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Shays, 
McHugh, Souder, Schrock, Miller, Murphy, Blackburn, Waxman, 
Lantos, Maloney, Tierney, Watson, Van Hollen, Ruppersberger, 
and Norton.
    Staff present: David Marin, deputy staff director and 
director of communications; Keith Ausbrook, chief counsel; 
David Young, counsel; Robert Borden, counsel and 
parliamentarian; Drew Crockett, deputy director of 
communications; Grace Washbourne, professional staff member; 
Teresa Austin, chief clerk; Brien Beattie, deputy clerk; 
Corinne Zaccagnini, chief information officer; Kristin 
Amerling, minority deputy chief counsel; Karen Lightfoot, 
minority communications director and senior policy advisor; 
Anna Laitin, minority communications and policy assistant; 
Earley Green, minority chief clerk; Jean Gosa, minority 
assistant clerk; and Andrew Su, minority professional staff 
member.
    Mr. Shays [assuming Chair]. Good morning. A quorum being 
present, the Committee on Government Reform hearing entitled, 
``Transforming the National Guard: Resourcing for Readiness,'' 
will come to order. Chairman Davis will be arriving shortly, 
but he asked me to open the hearing so we can get all the 
testimony in the record.
    Governor Pataki, we understand you have a tight schedule, 
and we appreciate your being here. I ask unanimous consent to 
allow the Governor to testify and answer questions after Mr. 
Waxman and I have made opening statements but before other 
Members do so. But if it's just Mr. Lantos and my colleague 
from Virginia, we probably could have all four of us do it. 
Without objection, so ordered.
    The committee convenes today to discuss important issues 
raised by plans to transform and modernize the National Guard 
to meet the demands of a growing set of domestic and global 
missions. We captioned the hearing Resourcing for Readiness, 
because Members need to know Guard units will be equipped and 
trained to perform both the Homeland Security and global 
defense tasks assigned them.
    In the past, the total force, the operational union of 
Active Duty and Reserve component units, didn't always add up. 
National Guard units too often languished at the end of the 
supply chain with limited training on hand-me-down equipment. 
At the national level, significant strides have been made 
reshaping military capabilities to meet an uncertain world of 
lethal threats at home and asymmetrical warfare overseas.
    But much more needs to be done to clarify the operational 
and physical implications of new military missions within the 
sovereign borders of the States, where National Guard members 
can be called to duty by both the Governor and the President. 
Federal mobilization of National Guard units can draw heavily 
from local first responder ranks, degrading domestic readiness.
    So the shape, size and mission of the National Guard of the 
future will have significant intergovernmental implications. 
Governors, county executives, mayors and hospital 
administrators are trying to build response capabilities and 
enhance preparedness without knowing who the Federal Government 
might bring or take away when disaster strikes. To train as 
they fight, Guard units have to take part in local and regional 
exercises. Equipment, interoperability standards and 
communication channels have to be established before the next 
attack is upon us.
    But National Guard civil support capabilities are not yet 
well integrated with the State and local response plans. When 
the battle lines stretch from Baghdad to Bridgeport, from 
Kandahar to Kinderhook, new approaches are needed to assure the 
National Guard is ready to confront the threat at home and 
abroad. Building on rich traditions that predate our 
constitution, the citizens militia that are the National Guard 
today bring awe inspiring patriotism and skill to their work 
and our common defense. They deserve to know they will have the 
equipment and training they need to succeed in their 21st 
century mission.
    At this time, the Chair recognizes the Ranking Member of 
the full committee, Mr. Waxman, for his opening statement.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T5597.001
    
    [GRAPHIC] [TIFF OMITTED] T5597.002
    
    Mr. Waxman. Thank you very much, Mr. Chairman. I want to 
thank you for holding this hearing. I am pleased that the 
committee has been focusing attention on the increasing demands 
facing our National Guard members. We must do everything we can 
to ensure that the National Guard can meet its myriad 
responsibilities without overburdening the dedicated and brave 
Guard members who risk their lives to serve.
    For over 350 years, our country has looked to the National 
Guard to provide security within our borders and assist in 
local disaster relief. But in the past few years, Guard members 
have been activated for Federal duties with increasing 
frequency and the Guard's responsibilities have been growing 
exponentially. The shift from an essentially Reserve role to 
active participation in the Nation's security forces has placed 
tremendous strains on the National Guard system. We in Congress 
have heard countless stories about problems Guard soldiers have 
experienced, from poor training to inferior equipment and 
health care, to delays in pay, to the negative effects of long 
deployments.
    We can't keep expecting these men and women to be 
everywhere and to serve indefinitely. We need direction and 
forethought from our military and State leaders, and a clear 
plan that considers the increasing burdens facing the National 
Guard. To this end, I support the efforts of General Blum and 
his counterparts at the Department of Defense and Department of 
Homeland Security to formulate a plan for restructuring the 
National Guard. I look forward to hearing more from today's 
witnesses about this plan and any other steps necessary to 
assure that the National Guard is best equipped to fulfill its 
important duties within and outside our Nation's borders.
    Mr. Shays. Thank you. We're going to go right to the 
witness, but we have a senior member, Mr. Lantos, and Mr. 
McHugh, who's from New York. I guess what I would do is just 
say that the Governor has to leave by 11 a.m., so it would make 
sense to go to his testimony. Is there anyone who would just 
like to make a short comment? Mr. McHugh.
    Mr. McHugh. I will be very, very brief, and I certainly 
want to add my words of welcome and note to my fellow committee 
members, as I suspect they totally understand, that the reason 
the Governor is here is, this Governor is a lot of very great 
things, known to New Yorkers and known, particularly after 
September 11th, to every American.
    But one of the things he is most of all is an amazing 
leader of the New York National Guard. Through his initiatives 
and his programs New York State National Guard receives support 
and benefits that are really second to none in this Nation. We 
have before us a gentleman who can help us understand a great 
deal about the demands on the Guard here and the new reality of 
the 21st century, but also can teach us a great deal about what 
other States might do to have as effective an organization. So 
Governor, welcome, it's good to see you again.
    Governor Pataki. Thank you.
    Mr. Shays. The Chair would recognize Mr. Lantos and then 
hope that we could go to Governor Pataki. Mr. Lantos, you have 
the floor.
    Mr. Lantos. Thank you, Mr. Chairman. I'm particularly 
delighted to welcome my good friend, Governor Pataki. I am 
particularly pleased that he is testifying today because his 
State is a perfect illustration of the wisdom of the 
legislation I introduced, namely, preventing National Guardsmen 
and Guardswomen from incurring severe financial losses and 
their families incurring severe financial hardships as they are 
activated. The State of New York provides the differential 
between the military pay and the former civilian pay. I want to 
commend the Governor for his State's action along this line. 
When it comes time to question him, I will ask him what the 
cost of this has been for the State of New York, whether it has 
entailed additional appropriations, and what in his judgment 
has been the impact on morale.
    New York State is leading by giving us an example of how to 
handle this problem. And it's long overdue that the 
administration drop its opposition to what is a common sense, 
singularly non-partisan approach to a severe issue of 
recruitment and retention. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman. Mr. Pataki, Governor, as 
you may know, it is our practice to swear in all our witnesses, 
being that this is an investigative committee. I would ask you 
to stand and raise your right hand.
    [Witness sworn.]
    Governor Pataki. I do.
    Mr. Shays. Thank you so much, Governor. You have the floor, 
and we welcome you and we know you have a very busy schedule. 
Thank you for honoring us.

   STATEMENT OF GEORGE E. PATAKI, GOVERNOR, STATE OF NEW YORK

    Governor Pataki. Thank you very much, Mr. Chairman, and to 
Congressman Lantos and Congressman McHugh and the other 
Members, thank you all for having me before you this morning, 
and for the opportunity to speak on this important subject.
    At no time in America's history has the National Guard 
played so critical role in both the security of our homeland 
and in our Nation's military objectives overseas. In today's 
world, the notion of the traditional citizen soldier, training 
1 weekend a month and 2 weeks a year for a war that might never 
occur is a thing of the past. Our troops are actively engaged 
on the front lines, supporting both our State's efforts to keep 
New York safe at home and our Nation's efforts to combat terror 
abroad.
    In February, I had the great privilege of joining five 
other Governors from across the Nation on a historic bipartisan 
mission to visit our troops in Iraq. I was inspired by the 
tremendous spirit, professionalism and resolve of each and 
every one of the soldiers I met. They understand the mission 
before them and why we must seize the opportunity to break the 
back of terror so that our children and their children can live 
in freedom.
    The trip also reinforced just how involved and essential 
the role of our National Guard troops is to our Nation's 
mission. Each day, we flew in and out of Iraq from Amman, 
Jordan. It was National Guard soldiers who piloted us each way. 
And everywhere I went, I met with National Guard soldiers from 
New York and from the other States.
    As we speak this morning, more than 3,700 of the New York 
National Guard members are currently on Active Duty, supporting 
State security missions at home, Federal security missions 
under Operation Mobile Eagle and overseas military operations 
as part of Operational Enduring Freedom and Iraqi Freedom. 
Thousands more are engaged in regularly scheduled training and 
operational requirements around the State, the Nation and the 
world.
    From riflemen to fighter pilots, in the turrets of Humvees 
and in the huge bellies of C5 Galaxies, New York National Guard 
soldiers and airmen are providing a historic level of support 
to the Coalition forces in Iraq and Afghanistan. From a total 
force perspective, the Guard has never played a more vital role 
in major combat operations.
    What truly sets the Guard apart, however, is its dual 
roles. Our Guardsmen and women are not just part time members 
of our Nation's military forces, they are our State's primary 
emergency response force, providing support to their 
communities and to civil authorities and first responders 
throughout the State.
    At no time in New York's history was this aspect of the 
National Guard's role more evident than on September 11, 2001. 
Within hours of the attacks on the World Tarde Center, 1,500 
New York National Guard troops from units within New York City 
had reported to duty. Another 1,500 units from upstate New York 
were en route. In less than 24 hours after the attacks, over 
8,000 New York National Guard soldiers and airmen were on 
Active Duty supporting New York State's security needs. These 
troops provided not just a calming presence on the streets of 
New York during very unsettling times, they provided New York's 
first responders with critical perimeter security support, 
refueling for civil emergency vehicles, emergency lighting, 
power generation, communications, emergency transportation, 
engineering assets and other logistical support.
    In the days, weeks and months that followed, our National 
Guard force would assume mission and responsibilities within 
New York State that never could have been imagined by previous 
generations of National Guard soldiers. Today, hundreds of New 
York Army National Guard soldiers are serving on State Active 
Duty as part of Task Force Empire Shield. These soldiers 
support security operations at New York's major rail stations 
and nuclear power facilities, missions that have been ongoing 
every day since September 11th.
    During times that warrant an even higher elevation of the 
threat level, the National Guard's Task Force Empire Shield is 
integrated into Main Shield, the State's multi-agency joint 
security task force, headed by the New York State Office of 
Public Security. In addition, a civil support team for weapons 
of mass destruction is on call 24 hours a day to respond to 
incidents, known or suspect, to involve nuclear, biological or 
chemical weapons. We continue to deploy our CST, to provide 
proactive precautionary monitoring at major public events and 
strategic locations throughout the city and State of New York.
    Soon our CST will play an instrumental role in the stand-up 
of a new type of National Guard capability, a chemical, 
biological, radioactive, nuclear and explosive, or CBRNE, 
enhanced response force. This joint National Guard task force 
will integrate CST with an enhanced medical company possessing 
robust determination and treatment capabilities, engineering 
assets specializing in search and rescue, and specially trained 
combat units capable of supporting civilian law enforcement.
    Even with all of these added responsibilities and missions, 
the New York National Guard remains our State's primary 
emergency response force. As New York's Governor, I've called 
upon New York's Guard more than any other Governor in our 
State's history. Each time they responded heroically and met 
every mission asked of them, particularly in times of crisis. 
The attack on the World Trade Center, 8 natural disasters, 4 
plane crashes, 11 crippling blizzards, 2 major wildfires, a 
statewide blackout and now of course, the threat of global 
terror.
    National Guard Bureau Chief Lieutenant General Blum is 
working in Washington to transform the Guard into a modern, 
highly relevant and appropriately structured force, capable of 
combating the asymmetrical threat of terror at home and terror 
threat abroad. I salute General Blum's efforts to enhance and 
modernize the Guard's mission, while preserving both its 
relevance to the Department of Defense and the capabilities it 
provides to the Governors.
    As State Commander in Chief of one of the largest Guard 
forces in the Nation, I'm encouraged by General Blum's vision 
and his appreciation of the Guard's dual role and the necessity 
of preserving that role. General Blum is committed to enhancing 
the National Guard's role as an active participant in the 
Nation's military force and he aims to preserve and enhance the 
National Guard's State role simultaneously.
    As we work to transform the U.S. military, and specifically 
the National Guard, it's critical to ensure that the Governors 
who are most intimately familiar with and better understand 
their unique needs retain the ability and the authority to 
deploy the National Guard troops that best meet those needs. 
General Blum's transformation plan would allow for a generous 
National Guard contribution to Federal missions at home and 
abroad, and ensure that at least 50 to 75 percent of a State's 
National Guard troops remain available for State Active Duty. 
His model shows real commitment to the traditional dual roles 
of the National Guard, and is one I strongly support.
    When President Bush gave authorization to deploy troops to 
airports across the Nation after the September 11th attacks, 
New York was of course among the first to respond. Because this 
mission was a Title 32 status, where troops are paid federally 
but remained under their State's command and control, rather 
than in Title 10 status, where they would have served under the 
Active Duty Army, we were able to meet this requirements 
quickly, smoothly and with the troops best suited for the task.
    From an operational standpoint, this approach makes the 
most sense and is consistent with General Blum's innovative 
thinking on this matter. We need to assure that troops 
activated under Title 32 status remain under the authority and 
control of the State's Governor to ensure maximum flexibility 
and effective deployment. General Blum's plan promises to bring 
predictability and regularity to Federal deployment of National 
Guard units. A full spectrum availability model would call for 
one Federal Title 10 Army Guard deployment every 6 years and 
one Air Guard rotation every 15 months. This will distribute 
the burden equally among States and units and provide 
predictability and ample planning time for both unit 
commanders, their individual troops and their families.
    Having spoken directly with families of deployed troops 
across New York, and having talked with troops on the ground 
during my trip to Iraq in February, I can tell you that General 
Blum's plan is not only welcome, but it is urgently necessary.
    In today's post-September 11th climate, we are asking more 
from our National Guard troops than ever before. In New York, 
we strongly believe it is incumbent upon our government to do 
more for our troops than ever before. No State in the Nation is 
doing more than New York to support our troops and their 
families. Last year, I was proud to propose and sign a historic 
measure called the Patriot Plan into law.
    The Patriot Plan, without question, provides the most 
comprehensive package of protections and benefits in the Nation 
to assist New York's military personnel and their families. 
This historic package of benefits and protections for deployed 
New York National Guard and Reserve troops was a recognition 
that the National Guard, like the rest of the U.S. military, 
cannot hope to continue its mission without these brave men and 
women who join its ranks.
    The Patriot Plan has 28 different benefit packages for our 
Guardsmen, including, and I will just briefly summarize, 
because I know it's a long hearing, including providing the 
difference between a State employee's pay and their Active Duty 
compensation; providing free tuition for the children and 
families of National Guard members who are killed or seriously 
injured in defending our freedom, and a number of other 
benefits as well.
    Quite simply, we have two basic roles here. One is to 
understand the importance of the State mission that the Guard 
plays as we call upon it for enhanced Federal activity, and 
second, the sacrifice that the families have to make while 
their loved ones are away. To the extent we can provide 
additional benefits, that's what we need to make sure the Guard 
remains strong and effective. Thank you.
    [The prepared statement of Governor Pataki follows:]

    [GRAPHIC] [TIFF OMITTED] T5597.003
    
    [GRAPHIC] [TIFF OMITTED] T5597.004
    
    [GRAPHIC] [TIFF OMITTED] T5597.005
    
    [GRAPHIC] [TIFF OMITTED] T5597.006
    
    [GRAPHIC] [TIFF OMITTED] T5597.007
    
    [GRAPHIC] [TIFF OMITTED] T5597.008
    
    Mr. Shays. Thank you for a very helpful statement, 
Governor.
    We have a number of people, we'll do the 5-minute rule, 
we're going to go with Mr. Schrock then Mr. Waxman if he 
returns. Then Mr. McHugh and Mr. Lantos. I'd love it if other 
Members--if you're able to stay beyond 11 a.m., it would be 
great, but let's give it a shot. Mr. Schrock.
    Mr. Schrock. Thank you.
    Thank you, Governor, for being here, thank you for your 
testimony, thank you for going to Iraq. I've been to Iraq and 
Afghanistan a few times, and whether they're Guard, whether 
they're Reserves or Active Duty forces, they all work together 
as one cohesive unit. That's a wonderful thing.
    You talked about the dual role. I just have one question 
I'm going to ask. Is there a benefit to, in your opinion, 
redefining the role of the National Guard in responding to 
homeland security concerns? In looking back at the last 2\1/2\ 
years, what have you found are the major stumbling blocks to 
helping the Guard respond to their homeland security challenges 
in your State? Do we need to redefine the authorities of the 
State Governors and the adjutant generals?
    Governor Pataki. In our State, we have had, I hate to use 
the word, but virtually seamless efforts to respond to any 
homeland security problems within New York State. We have a 
well thought out plan and we're able to implement that plan. 
And the fact that the adjutant general, the local commanders 
can determine what force to use for a particular mission has 
been enormously helpful.
    I'll just give you one example. When we call on National 
Guard troops to perform a particular mission that doesn't 
require a skill set, we ask for volunteers so that we minimize 
the disruption in these citizens soldiers' lives. We couldn't 
do that if they were federally controlled, so we're very 
pleased with the response of the Guard and the ability to 
command and control the Guard within the State.
    Mr. Schrock. You think it works fine, then?
    Governor Pataki. Within our State, it works very well. The 
area of concern that we all have, I think, is to make sure that 
the homeland security role within the States under the command 
and control of the Governors is understood as a critical 
mission of the Guard as they assume a more important Federal 
role, and that the sacrifice that the families make is 
understood, and we do what we can to help them on every 
different front.
    Mr. Schrock. Great. Thank you. I yield back, Mr. Chairman.
    Mr. Shays. Mr. Lantos, you can now question Mr. Pataki.
    Mr. Lantos. Thank you, Mr. Chairman.
    Governor, I again want to commend you for your leadership 
on this whole, complex issue. I'd like to zero in on the 
legislation I introduced almost a year ago. I have to admit 
that I find it very disturbing when I don't understand the 
source of the opposition or the logic behind the opposition. I 
know you will be able to help me.
    In New York State, you recognize the obvious, that at a 
time of war, we must have if not equality of sacrifice, because 
we cannot attain that, but we must have an attempt at sharing 
sacrifice. To place on the families of activated National Guard 
people tremendous financial burdens, financial strains of major 
proportion, people losing their homes because they cannot pay 
their mortgage, children discontinuing their college education 
because the parents can't pay tuition.
    It makes eminently good sense not to impose on an activated 
National Guardsman or woman an additional financial burden. In 
New York, you're doing this, and I want to congratulate you. 
May I ask your general judgment about the philosophy behind my 
legislation, namely preventing financial losses for people who 
are already called upon to make a major personal sacrifice?
    Governor Pataki. Congressman, of course I agree with the 
need that we have, not just at the State level but at the 
Federal level to understand the economic impact this has on a 
citizen soldier who has been activated. It's very different 
from a career professional military person who understands the 
pay scale and accepts that pay scale as part of their career 
determination. But citizen soldiers too often will see their 
income dramatically reduced.
    Now, how you deal with that, I think you can do it in many 
different fronts. In fact, Congress first began to respond to 
that concern with the Soldiers and Sailors Relief Act that was 
passed back during World War II. But obviously, circumstances 
have changed dramatically since World War II.
    So I think there are a number of different approaches. One 
is to provide additional benefits in the form of salary 
enhancement or making up the gap when someone suffers a 
significant diminution of earnings. Another is to make sure 
that we do cap interest rates. I know the Soldiers and Sailors 
Relief Act does that at 6 percent. Given the historically low 
interest rates now, perhaps they could be lowered even more.
    Our plan not only provides to make up that salary 
differential, but as an example, if a young man or young woman 
goes out and leases an SUV that they use and then they get 
called to Active Duty, we allow them to cancel that lease, so 
that the don't have any penalty at all. If you're enrolled in 
school and you're activated, we require that school to give the 
tuition back and the fees back to the portion of the semester 
they were there and to keep that slot open for when they come 
back.
    So there are a whole gamut of benefits, including salary 
enhancements, that we are looking to do at the State level, and 
I think it is appropriate to do at the Federal level as well.
    Congressman, just one point, though, and this is something 
where I'm commenting from afar because I'm not a part of the 
Federal military chain of command. But one of the important 
things we cannot do is have a differential among those in the 
Guard so that people are reluctant to call up a particular unit 
because of the additional cost factor if that skill set is 
needed.
    So I don't know if that is in fact a relevant consideration 
as your legislation and others is considered, but it's just 
something that we have to be able to call upon the people we 
need with the skills we need without concern for the economic 
cost to the country, we have to be concerned about the economic 
impact on those soldiers and sailors and their families.
    Mr. Lantos. Governor, if I may pursue this for one more 
moment, obviously we all know that we face serious problems of 
re-enlistment, retention, enlistment, given the new nature of 
the global struggle we are engaged in. In view of that fact, do 
you view the New York program as a success?
    Governor Pataki. The New York program is a success. As I 
indicated earlier, one of the first things we did, well before 
September 11th, we created a program where if you enlist in the 
National Guard, you get free tuition at our State or city 
universities or an equivalent in a private or parochial. And 
that had a very dramatic impact on recruitment. Now we have 
seen, since September 11th and since the operations overseas, 
recruitment holding steady, and in fact a little bit increased 
over the last couple of months.
    We are concerned about retention, as thousands of our 
National Guard troops come back. It's too soon to tell, but one 
significant enhancement of the benefit package for our National 
Guard troops that we believe would help with both recruitment 
and retention would be to provide health benefits to those who 
enlist in the National Guard. It's something that they would be 
able to access under the Federal program, and it would have an 
enormous help to both encourage enlistment in the first case 
and retention of those who are coming back.
    Mr. Lantos. I want to thank you, Governor, and want to 
commend you for your achievement.
    Governor Pataki. Thank you very much, Congressman.
    Mr. Shays. Thank you. Mr. McHugh.
    Mr. McHugh. Thank you.
    Again, Governor, welcome. Always good to see you. My friend 
from California brings up a serious consideration, and from my 
other perspective as the chairman of the Personnel Subcommittee 
on Armed Services, I commend him for his concern and for his 
leadership on it. I was pleased to hear your response, 
Governor, and the program you've initiated, that I tried to 
acknowledge and praise in my opening comments. Obviously I'm 
very familiar with it. Again, God bless you for that insight 
and that leadership.
    As I think your response indicated, there's a whole range 
of things that can and probably should be done in terms of 
benefit packages for the Guard, for the Reserve component in 
general that can show both our appreciation and also our 
concern about retention and recruitment, and you have. As my 
friend from California suggested, you're a natural leader on 
that.
    But Mr. Lantos mentioned the administration's opposition, 
and I think technically that's true. But I think it's important 
just to note for the record that the military service is 
opposed to that initiative as well, because of their concern 
about the morale impact of placing two service members in this 
new era, one active and the other Guard and Reserve, where 
they're doing the same job and taking the same bullets and 
sitting in the same foxhole and being paid at different levels.
    Mr. Lantos. Will my friend yield for just a second?
    Mr. McHugh. I will in just a moment.
    I'm not sure that concern is justified. There have been 
attempts in the past to try to divide pay differentials that 
have failed and insurance policies that were run through Gulf 
war one. We are aggressively searching for a way in which we 
can help that one-third, in fact about one-third of the Guard 
and Reserve that have deployed actually lose money, about a 
third stay the same and about the other third actually make 
some money, because it is a legitimate point.
    But it has proven to be far more complex here at the 
congressional level, and at the Washington level, than just 
passing the bill to mandate it. With that, I'd be happy to 
yield to my friend from California.
    Mr. Lantos. I will just make one quick point, and thank my 
good friend for yielding. I find a profound inconsistency in 
the administration's opposition while at the same time the 
administration is praising private employers for maintaining 
salary levels of activated people. They can't have it both 
ways. They can't praise a company for doing exactly what my 
legislation is calling for while opposing the legislation.
    Mr. McHugh. Well----
    Mr. Lantos. That's profoundly inconsistent.
    Mr. McHugh. Reclaiming my time, I understand the 
gentleman's point. But as I tried to note, maybe I wasn't clear 
enough, there is a distinction between the administration 
concerns about the gentleman's proposal, and they're praising 
private employers and the military opposition, I was referring 
to the military's concern, I'm not de-legitimizing the 
gentleman's point, I just want him to know we're trying to work 
through that.
    That having been said, Governor----
    Governor Pataki. It's a very unpleasant debate, and I'm 
used to being in the middle of it.
    Mr. McHugh. Well, we appreciate it, and if you weren't so 
darned foresighted on this, it wouldn't have been a problem. 
But it raises a very serious point, and we need to deal with 
it, and we thank you for drawing our attention to it.
    I was going to ask you about recruitment and retention, 
because that does become important in the Reserve components, 
and General Blum was kind enough to stop by my office not so 
very long ago and talk about the discussions he had with you 
and some of the other Governors with respect to that meeting to 
retain both the control of those forces through his Title 32 
provision, but also the need to ensure you have sufficient 
manpower, personpower, I guess, in this day and age, to meet 
those kinds of emergencies and demands that are common to 
someone who's got a few nuclear power plants in his district 
and has had all those snow storms you spoke about and the ice 
storm and others for the National Guard that you deployed and 
activated came and helped. That's something we want to see 
happen.
    So you are, as I understand your comments, at least at the 
moment encouraged if not optimistic that General Blum is in the 
right direction, and that will be helpful in ensuring that you 
have as a Governor what you need.
    Governor Pataki. Yes, I think General Blum has outlined a 
very sound strategy that not only works from a Federal force 
perspective but works from the standpoint of the Governors, 
their Guards and the Guard families. One of the important 
elements is to have some predictability and some warning as to 
when you're going to be called for Federal duty.
    After September 11th, obviously we were all starting an era 
that we had not anticipated and could not, if we have tried, 
prepared for. It was just very different to see this type of 
attack upon our soil against civilians. So when some of our 
Guard components were activated for Federal duty, they hadn't 
been prepared, either as a family or militarily to respond. And 
it took some time.
    But that is a thing of the past, I honestly believe that. 
Right now we are seeing some, we get the advance notice, the 
units are on a list and they do have the training, the 
preparation and when they're called to duty, they are called 
for a mission as opposed to being called and then ending up 
waiting, which happened shortly after September 11th quite a 
bit. So I'm very pleased with the Federal action in dealing 
with, to the extent they can, predictability, notification, 
training, and equipment is prevailing.
    Congressman, let me just say for a moment, you and I have 
been to Fort Drum together a number of times. The Tenth 
Mountain Division, of course, is headquartered there. They have 
played a critical role in Afghanistan and in the entire war 
against terrorism. You've done a tremendous job in making sure 
that facility and that great unit is one of the finest, if not 
the finest in the world.
    Mr. McHugh. Thank you. I yield back.
    Mr. Shays. I thank the gentleman. We're going to go to Mr. 
Ruppersberger then Mrs. Miller and Mr. Tierney and Mrs. 
Blackburn.
    Mr. Ruppersberger. Governor, thank you. First, having a job 
like yours and managing a lot of issues you have to deal with, 
you do a great job.
    Governor Pataki. Thank you.
    Mr. Ruppersberger. When I was in Iraq, it was where you 
talked with the troops and I think one of the biggest issues 
with the National Guard and Reserves too were what was 
happening when they got back to their home life and with their 
families and jobs. I think really, you call it the Patriot 
Plan, it's an admirable plan and probably has given a lot of 
comfort to those individuals. We still have a long way to go, 
and there are a lot of problems when our men and women come 
back, and we'll have to face that down the road.
    To begin with, the issue of recruitment, because we do have 
a dual role, and that dual role, I'm sure, will continue on for 
many years to come, based on what's happening in the world 
today. Where does New York stand as far as recruitment of 
National Guard? What is your plan?
    Governor Pataki. We have, as I indicated, we have 
recruitment levels not just remain the same so that we can 
maintain our current force level, it has actually gone up a 
little bit over the course of the past few months. We had a 
terrible record in the early and mid 1990's in recruitment. But 
one of the programs, we began a number of things. One was the 
free tuition thing. That had an enormous impact on young 
people, to understand that by serving their State and their 
country they could at the same time get education without any 
charge. It dramatically improved recruitment.
    We also began to use the norm, so that they had 
constructive missions, not just in response to emergencies, 
whether it was TWA 800 or the ice storm in Congressman McHugh's 
district or some of the other disasters, but we created 
something called Guard Help where they would proactively work 
with communities. Just one example in the south Bronx, the 
Bronx River was a needed entity, it's a wonderful water body 
where you had truck bodies and debris blocking the stream.
    We brought in a Guard engineering crew to work with the 
community and clean it out. So they had a mission where they 
were helping their communities, they had a sense of purpose as 
well as immense benefits. It worked extremely well, we're 
pleased with the recruitment level that continues now. Our 
concern, as I indicated, is with the troops coming back, what 
the retention rate will be. We just don't know, because it's 
too soon.
    Mr. Ruppersberger. How about the issue of retention?
    Governor Pataki. We don't know, we're not sure. We're 
hopeful, because most of our National Guard troops in Iraq have 
gotten back within the last weeks. I believe there's a 90 day 
period when they come back where they make a determination. So 
we haven't seen people saying yes or no yet. Anecdotally we're 
hopeful, but it's too soon to really say.
    Having said that, it's always better to retain more. And if 
we could enhance the National Guard by providing health care 
benefits, military Federal health care benefits for someone who 
enrolls in the National Guard, it would help on both levels. It 
would help with recruitment because it would be another benefit 
and reason for someone to choose to serve. And when the 
soldiers came back, it would help with retention because they 
would have a significant benefit they might not have in 
civilian life.
    Mr. Ruppersberger. That would be excellent. It's amazing 
the patriotism that the National Guard and Reserve in the 
United States and abroad and Iraq have at this point.
    To get to another issue as far as local government is 
concerned, you have a lot of your first responders, especially 
in your volunteer fire and paramedics, that have been called to 
service. And it's causing a problem with some of the stations 
that have to, at least in my State, the State of Maryland. What 
impact is that having on your State?
    Governor Pataki. It has had an impact, a significant 
percentage of our National Guard are first responders. And a 
lot of them are police officers and corrections officers. 
Before we passed the Patriot Plan, we listened to the local 
governments. And they said, well, we're losing three of our 
police officers, a small town in upstate New York. And we don't 
want to hire new ones, because they'll be coming back.
    So what we did as part of our plan is in that law now, 
local governments can bring back retirees to fill a position of 
someone who has been activated to National Guard duty. It's a 
very intelligent program. A retired firefighter, retired police 
officer, someone from that community gets activated, their 
local government doesn't want to train somebody else, knowing 
that this person will be returning in a year, so they can bring 
back someone. So we have had the problem, this is one of the 
ways we've looked to deal with it.
    Mr. Ruppersberger. OK, thank you.
    [The prepared statement of Hon. C.A. Dutch Ruppersberger 
follows:]

[GRAPHIC] [TIFF OMITTED] T5597.013

[GRAPHIC] [TIFF OMITTED] T5597.014

    Mr. Shays. Thank you. The Chair would like to recognize 
Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman.
    Governor, thank you so much for being here today. I must 
say that watching you after the absolutely horrific attacks on 
our Nation on September 11, we all look to you as the Nation's 
Governor, quite frankly, and your leadership that you 
demonstrated at that time has really been very significant. We 
certainly appreciate your being here today and your comments.
    I share your concern about retention with the National 
Guard. I actually have a National Guard base in my district in 
Michigan, which has been sort of the staging area for our, all 
of the midwest, frankly, for many of the Guard and Reserve 
components that have deployed for Afghanistan, Iraq, 
Uzbekistan, what have you. It's interesting, actually over 30 
percent now of all our troops in theater are National Guard or 
Reserve. So they really, as you mentioned in the total force 
concept, are such a critical component of all that.
    I would just make one comment, we talked about retention. 
One of our Guard units, the Michigan Red Devils, who fly F-15s, 
the 107th is over in Iraq right now. When they deployed, they 
had more volunteers than they actually could accommodate, and 
I'm sure that is not unique throughout the Nation.
    But my question, I think, Governor, to you would go more to 
your State plan. As you're aware, obviously, all the different 
States are preparing their individual risk assessment plan for 
the Department of Homeland Security. And how did you find in 
your State the cooperation from your various units? Did you 
task that force principally to--did you call it New York's 
Public Security Force or your State Police? Did they cooperate 
with the National Guard?
    Governor Pataki. We had an emergency management office, 
SEMO, the State Emergency Management Office, that responded to 
the national disasters and plane crashes and things of that 
nature. But after September 11th, we created a whole new 
bureau, the Office of Public Security. We gave them oversight 
over all the different elements, including the National Guard, 
so we would have coordination.
    So we don't have the National Guard running our homeland 
security operation in New York State, we have an entity, 
because we have to integrate not just National Guard, but State 
Police, New York City Police Department, the finest in the 
world, first responders from around the State. And one of the 
key elements is integrating the health department, so we can 
have instantaneous, not instantaneous, but within minutes, the 
ability to determine if there is an outbreak of a particular 
illness or where experts are to respond.
    So we created this entity, the National Guard plays a 
critical role within that entity, but I wouldn't say a 
disproportionate role. The State police, the health department, 
local officials are all of them working together.
    Mrs. Miller. Just one other question. As all of us are 
trying to make sure that we do get the necessary resources into 
our respective States, the first responders, what have you, did 
you share your State plan with your congressional delegation or 
did you have any input----
    Governor Pataki. We have worked closely with the 
congressional delegation. I don't know that we sat down and 
formally said, this is what we're doing. But we did give them 
parameters and also of course the request for Federal 
assistance. Because this is an extraordinary expense, and in 
New York now, we're at level yellow, it's still costing us tens 
of millions of dollars for, as Congressman McHugh was 
indicating, enhanced security at the nuclear power plants in 
his district, train stations, bridges, tunnels, other very 
sensitive areas.
    Mrs. Miller. I see. Thank you very much, and again, thank 
you for your testimony today and your service to the State and 
the Nation.
    Governor Pataki. Thank you.
    Mr. Shays. Thank you. Mr. Tierney, you have the floor.
    Mr. Tierney. Governor, thank you for coming here today and 
for your testimony.
    In Massachusetts, one of the comments that some of our 
officers were making was about the armories, the physical 
assets that the Guard has. In New York, do you feel all your 
physical assets are being used to their maximum potential? If 
they are, what exactly are you doing with them other than just 
the monthly training regimen that's going no, and if you're 
not, what do you think they might be used for?
    Governor Pataki. First, let me say from an equipment 
standpoint, I know that question has been raised. All of our 
Guard troops that have been deployed overseas were very pleased 
with the level of material and equipment they've been provided. 
And I think there's been dramatic improvement over the course 
of the past couple of years in making sure that the necessary 
equipment and supplies that we need, not just for overseas but 
also domestically, are available.
    With respect to the utilization of the resources, General 
McGuire, our Adjutant General, I'm unaware that we have any 
shortages or stockpiles. The General reminded me that things 
like our engineering battalions that haven't been deployed 
we're using as things like the Guard health program, so that we 
are utilizing those assets on an ongoing basis in a way that is 
constructive to the troops, because it gives them experience 
and training and a sense of mission and helps with the local 
communities as well.
    So if you're creative, we've got the equipment, we're going 
to use it.
    Mr. Tierney. Beyond equipment, the armories themselves, the 
buildings, structures. Are you maximizing the use of those and 
how?
    Governor Pataki. We have surplus armories, because the size 
of the force has, since over 100, in some cases 150 years ago 
when these armories were constructed, there are surplus 
armories. But what we've done, as we have identified those that 
no longer serve a military purpose, we've turned them over to 
community groups, we've converted them into recreational 
centers, or community centers, we've sold them off to private 
entities. They still serve a very important function.
    The evening of September 11th, the armory on 23rd Street in 
lower Manhattan served as the family command center where 
family members would go for information. So we want to make 
sure we maintain sufficient armory capability around the State 
in case there's a call on them for some emergency service. To 
the extent we have surplus armories, we have disposed or turned 
over to communities a large number of them.
    Mr. Tierney. Thank you. I yield back, Mr. Chairman.
    Chairman Tom Davis [assuming Chair]. Thank you very much.
    Governor, I apologize for being late. We are so happy to 
have you here today to talk about the job you're doing there. 
You have a unique perspective in New York, of course, being the 
epicenter of September 11. We appreciate it.
    I'm going to defer my opening statement so we can get to 
members' questions. Usually we have one or two Members in this 
hearing, so on a day the House is not voting, there's not a lot 
of interest in what you have to say, and we appreciate your 
being here.
    Governor Pataki. Thank you for having me, Mr. Chairman.
    Chairman Tom Davis. Mrs. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman, and Governor, 
thank you so much for taking the time to be here and to talk 
with us. Those of us that have large numbers of National Guard 
families in our districts and in our States are very concerned 
and very interested in what we're going to do as we look at the 
National Guard going forward, how they integrate into the 
Active Duty. The issues you've mentioned of predictability, 
readiness, skills, whether it's the equipment, the training, 
the help, the quality of life issues for the families, and I 
commend you for your Patriot Plan and the way that does address 
those quality of life and recruitment and retention issues.
    I'm going to roll my three questions into one for the sake 
of conserving time, and ask you to respond to those. Because I 
know you all had significant Guard deployments like we are 
having in Tennessee, with our Guard being down, and did those 
Guard deployments affect your ability to respond to State 
missions or disasters, or homeland security needs. And then as 
you looked at your State plans, did you build a compact with 
surrounding States to assist you and back you up if there were 
to be a need for those resources. And the third part is, how 
did you as a State reimburse the Guard for any homeland 
security missions that they may have performed for you?
    Governor Pataki. That brings up three very important 
questions. First, with respect to the Federal deployment, it 
has never jeopardized our ability to respond or be active 
status to protect the State of New York against any possible 
attack. As I indicated, right now there are probably 3,700 New 
York Guards troops that are serving a Federal mission, hundreds 
more serving a State mission. But we have 17,000 plus the Naval 
militia and the New York Guard.
    So I don't believe, other than September 12th and a few 
weeks after that, there are still units that have not been 
called upon because of their unique skill sets. So we have not 
been stretched too thin, to use that term. And General Blum and 
the Federal officials have been very, very careful to work 
closely with our command structure to make sure that the calls 
they have made are consistent with our need to protect ourself.
    Second, with respect to compacts with surrounding States, 
of course, we are a part of EMAC, the Emergency Management 
Assistance Compact, with a number of other States. That was 
very helpful right after September 11th, when emergency teams 
from other States came to New York and they had the ability to 
function within New York State free of any constraints they may 
have had because they were not within their home State.
    We also have entered into, I assigned Executive orders, 
I'll just give you one example, authorizing Connecticut and the 
New Jersey State police and law enforcement officials to have 
jurisdiction on the trains between New York and Connecticut and 
New York and New Jersey. When we're at level orange and at 
other times that we don't discuss, we have significant 
additional support and security on the commuter trains, in 
addition to on the subway lines. The commuter lines run not 
just within New York State but into New Jersey and Connecticut. 
And the Governors of Connecticut and New Jersey have placed 
their troopers where we would have jurisdiction of our troopers 
on the trains in Connecticut and they would have jurisdiction 
within Penn Station or Grand Central Station. And that has 
worked very well.
    And we're continuing to work on a regional concept of 
support, particularly information sharing. We're going to be 
moving forward on the intelligence and information sharing with 
some specific initiatives over the course of the next few 
weeks.
    Mrs. Blackburn. Thank you, sir. We appreciate your work and 
appreciate your time here very much.
    [The prepared statement of Hon. Marsha Blackburn follows:]

    [GRAPHIC] [TIFF OMITTED] T5597.009
    
    [GRAPHIC] [TIFF OMITTED] T5597.010
    
    Governor Pataki. Thank you.
    Chairman Tom Davis. Thank you. Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman, and thank you, 
Governor, for your leadership on these many issues.
    I also had the opportunity to travel to Iraq in February on 
a trip that was led by the chairman of this committee, and had 
the opportunity to talk to many of our National Guardsmen and 
women there. I must say I found their morale was high, that 
they were proud of the service they were doing.
    They also, though, were lied, that the term, that the time 
for their tour of duty, they took that seriously as it was 
given to them and many of them were discouraged by the fact 
that their tours were extended beyond the time they had been 
originally informed. Obviously you have a hardship on families 
back home as well as them. So I think it's important that we 
work this out so we can provide greater predictability both to 
the men and women who are serving overseas but also to their 
families back home. I do appreciate what you've done in New 
York to relieve those burdens.
    I want to ask quickly, if there's a member of the New York 
State government who is deployed overseas, in addition to 
paying the pay gap, you also guarantee their position will be 
held open when they return, is that right?
    Governor Pataki. That's correct. We hold their position 
open.
    Mr. Van Hollen. And a number of States have done this, my 
home State of Maryland has done this. Their experience has been 
that they are able to cover this pay gap without having to 
request additional appropriations, that those agencies have 
been able to fill, meet those demands without having a lot of 
additional cost. Is that your experience?
    Governor Pataki. That has been our experience. But I just 
want to clarify something in response to what Congressman 
Lantos said earlier. We provide the pay gap when you are a 
State employee. We did not mandate that for local governments 
and we do not do that for private employers. So if you are a 
State employee, we work with the public employee unions, we 
provide that pay gap, we hold the slot open. And we've been 
able to minimize the fiscal impact to the State of that 
particular benefit.
    Mr. Van Hollen. Right. I just think what you've done is a 
good model for what we can be doing at the Federal level with 
respect to Federal employees, as Congressman Lantos has 
suggested. I think we can do it with minimal impact on the 
budget.
    Let me ask you, because a lot of States are facing multiple 
demands on the National Guards people as you suggest. Do we 
have, this function where the Guards serve within the States to 
respond to emergencies now more and more to homeland security 
demands, at the same time we have many being deployed overseas. 
Have you encountered any difficulties in terms of the competing 
demands on the same resources and when those competing demands 
occur, which take precedence? How do you decide?
    Governor Pataki. We really have not seen that, because 
General Blum, as I indicated, has been very, very cooperative 
in working with our command structure, General McGuire and the 
others, as the New York members of the Guard are deployed for a 
Federal mission. So we haven't seen that.
    There is one area where we are requesting additional help, 
and that's the civil support team, which has the ability, the 
high tech equipment, to not just respond but to monitor for 
chemical, biological or radiological weapons. We only have one 
of those teams. It hasn't been called upon for Federal service, 
but we call upon it regularly to monitor and to proactively 
protect. That is one area where we would very much like the 
authorization to have a second civil support team that would 
allow us to enhance that capability and not keep relying on 
that one unit.
    Mr. Van Hollen. Thank you. And thank you, Mr. Chairman.
    Chairman Tom Davis. I think the time has come, you said 11 
o'clock, and we will let you go at 11. I appreciate it very 
much, for what you've been able to add to this. We may get back 
to you with some ideas. This has been very, very helpful for us 
and we appreciate it.
    Governor Pataki. Thank you very much, Mr. Chairman. It's 
been an honor to testify before the committee. What you're 
doing is extremely important and I have no doubt you will do it 
extremely well. Thank you very much.
    Chairman Tom Davis. Thank you very much.
    We will have a 3 or 4 minute recess as we go to our next 
panel.
    [Recess.]
    Chairman Tom Davis. We're going to move to our second panel 
of witnesses, and I want to thank you all for taking time from 
your busy schedules to appear today. I think you've heard 
Governor Pataki from the back.
    We have today the Honorable Paul McHale, Assistant 
Secretary of Defense for Homeland Security and a former Member 
of this body. Paul, welcome back in a different role here, but 
it's good to have you here. The Honorable Thomas F. Hall, the 
Assistant Secretary of Defense for Reserve Affairs; Lieutenant 
General H. Steven Blum, the Chief of the National Guard Bureau; 
and Major General John Love, the Special Assistant to the 
Combatant Commander for National Guard Affairs, U.S. Northern 
Command.
    It is the policy of this committee that all witnesses be 
sworn before you testify, so if you would rise with me and 
raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much.
    Members deferred opening statements, and I would just put 
my opening statement into the record, and we'll ask unanimous 
consent that Members put their statements into the record.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T5597.011
    
    [GRAPHIC] [TIFF OMITTED] T5597.012
    
    Chairman Tom Davis. I do recognize Mr. Schrock. Do you want 
to wait? We'll go through this panel and then go to Mr. 
Schrock's questioning.
    Mr. Secretary, welcome back. It's good to have you here. I 
know you've worked hard on this and thanks for being here.

 STATEMENT OF PAUL MCHALE, ASSISTANT SECRETARY OF DEFENSE FOR 
HOMELAND SECURITY, U.S. DEPARTMENT OF DEFENSE; THOMAS F. HALL, 
   ASSISTANT SECRETARY OF DEFENSE FOR RESERVE AFFAIRS, U.S. 
   DEPARTMENT OF AFFAIRS; LIEUTENANT GENERAL H. STEVEN BLUM, 
 CHIEF, NATIONAL GUARD BUREAU; AND MAJOR GENERAL JOHN A. LOVE, 
  SPECIAL ASSISTANT TO COMBATANT COMMANDER FOR NATIONAL GUARD 
                 AFFAIRS, U.S. NORTHERN COMMAND

    Mr. McHale. Mr. Chairman, it's good to be back.
    Mr. Chairman and distinguished members of the committee, it 
is an honor and a privilege to appear before this body. To be 
entrusted with national security responsibilities at any time, 
but especially at this point in our country's history, it is a 
solemn and sacred duty.
    From past experience, I fully appreciate your oversight 
obligations pursuant to Article 1, Section 8 of the 
Constitution, although I have to tell you it's a little more 
challenging on this side of the table than it was when I sat up 
there and asked the questions. My goal today is to provide the 
committee with a candid, accurate assessment of our current 
homeland defense capabilities and to describe emerging DOD 
mission requirements with particular emphasis on Reserve 
component capabilities.
    Because I have submitted my formal testimony for the 
record, I would like to provide only a brief introduction at 
this point, in order to allow maximum time for member 
questions. I appear before you today in my capacity as 
Assistant Secretary of Defense for Homeland Defense. My 
position was created by Public Law 107-314, the National 
Defense Authorization Act of 2003.
    The statutory duty assigned to the Assistant Secretary of 
Defense for Homeland Defense is ``the overall supervision of 
the homeland defense activities of the Department.'' I was 
nominated by President Bush in January 2003 and confirmed by 
the Senate 1 month later. As a result, I have been serving in 
this office for just a little over a year.
    In the interim, much has happened. Although my written 
testimony focus in some detail on the organizational changes 
within the Department of Defense following the attacks of 
September 11, 2001. I think the members of this committee are 
primarily interested in the recent steps we have taken to 
ensure the physical safety of our citizens, their property and 
our Constitutional freedoms. The painful losses of September 
11th produced not only grief, but resolute action.
    Each day since September 11th, the men and women of the 
North American Aerospace Defense Command, NORAD, have patrolled 
the air space over Canada and the United States. In a 
completely integrated effort of U.S. and Canadian capabilities, 
the U.S. Air Force, Air Force Reserve and the Air Guard have 
protected the skies of our major metropolitan areas, critical 
infrastructure, government facilities and historic monuments. 
These dedicated professionals have executed over 34,000 air 
defense sorties and responded to over 1,700 requests from the 
Federal Aviation Administration to intercept potential air 
threats. That is an extraordinary achievement.
    In fiscal year 2004 alone, the Air National Guard has flown 
1,909 sorties and logged 6,926 hours to guard our Nation's 
skies. The number of flights and their location changes daily, 
and each day's flight data is shared in advance with the 
Department of Homeland Security. This level of air security is 
unprecedented in our Nation's history. Nearly every homeland 
defense exercise that we now conduct involves a threat scenario 
involving a terrorist takeover on commercial airliners. As a 
result, our air defense training is realistic, focused, and 
subject to well understood rules of engagement.
    We had implemented similar improvements in our domestic 
land defense capabilities, while fully recognizing that 
domestic counter-terrorism is a lead law enforcement mission, 
we now have Active Duty soldiers and Marines on alert every 
hour of every day, prepared to deploy to any location within 
the United States where a land defense against a terrorist 
attack might be required. Such quick reaction forces did not 
exist on September 11, 2001. They do now and they are both 
trained and ready.
    Even more importantly, we are working closely with the 
National Guard Bureau to ensure that Army Guard forces will be 
mission ready to provide immediate land security forces within 
their own States. In my judgment, the protection of critical 
infrastructure will likely become a core National Guard mission 
during the next decade. It is also important to note that DOD 
has recently been assigned, with the signing of Homeland 
Security Presidential Directive 7, an important responsibility 
in the protection of the defense industrial base. The 
achievement of this new mission will require close coordination 
of private and public, military and civilian security 
capabilities. The task is both enormous and essential.
    We now recognize that a 21st century maritime defense 
requires a common operating picture of the maritime domain, 
real time tracking of threat vessels, appropriate ships and 
resources to support maritime intercept operations on the high 
seas against terrorists potentially armed with weapons of mass 
destruction, and command and control structure which maximizes 
both Navy and Coast Guard capabilities.
    Our goal is to defeat every enemy maritime threat with an 
integrated, layered defense long before such threats are able 
to enter our ports. To that end, Secretary of Defense Rumsfeld 
recently signed an expanded maritime intercept operations 
execute order for realistic maritime exercises and 
unprecedented Navy-Coast Guard cooperation. We are making daily 
progress with that goal.
    Similar improvements have been made with regard to DOD's 
ability to support civilian authorities following a terrorist 
attack. Thirty-two National Guard weapons of mass destruction 
civil support teams have been trained, equipped and certified 
by the Secretary of Defense. Twelve new teams will be created 
this year. We are planning to establish a total of 55 civil 
support teams, sufficient to ensure that every State and 
territory will be served by a team.
    If a more substantial WMD response is required, we have 
established, equipped and organized large joint task forces at 
dispersed locations throughout the United States, sufficient to 
ensure that we will be able to respond to multiple, near-
simultaneous terrorist attacks involving weapons of mass 
destruction. Although this capability is not fully developed, 
we are working hard and with a sense of urgency to get there.
    In my view, multiple simultaneous attacks are not only 
possible, they are consistent with terrorist operational 
doctrine. Even in the absence of a large scale enemy attack, 
the Department of Defense civil support responsibility is 
substantial. During the past year, DOD acted on 75 separate 
civil support requests from more than 20 civilian agencies, 
including the January 4th deployment of the Marine Corps 
chemical-biological incident response force to the Dirksen 
Building when ricin was detected in Senator Frist's office. 
That mission was executed at the request of the Capitol Police.
    And finally, we at DOD recognize that an effective defense 
against terrorist activity requires a close daily partnership 
between our Department and the newly created Department of 
Homeland Security. Our missions are complementary and mutually 
reinforcing. To make certain that partnership is a reality, 
employees from my office now work full time in the Homeland 
Security and Operations Center. A defense coordination office 
has been established by DOD personnel at DHS. A memorandum of 
agreement for mutual support has been negotiated between the 
two departments. And I meet routinely and regulatory with 
senior DHS leadership, including a 1-hour meeting yesterday 
with Admiral Loy, the Deputy Secretary.
    Our homeland security and homeland defense exercise 
programs have now been fully integrated. The scenarios are 
challenging and involve complete interagency participation. Mr. 
Chairman, this summary should make it clear that the Department 
of Defense, working with our partners in the private and public 
sectors at the local, State and national levels, is fully 
committed to the most capable homeland defense ever planned or 
executed in our country's history.
    Despite great progress, we are not comfortable, we are not 
satisfied. Rather, we are dedicated, with a real sense of 
urgency, to ever-improving homeland defense capabilities. In 
that effort, our men and women in uniform stand in common cause 
with the members of this committee. Victory in the global war 
on terrorism is a national imperative, our generation's 
greatest challenge.
    Mr. Chairman, I look forward to your questions and those of 
the members of the committee.
    [The prepared statement of Mr. McHale follows:]

    [GRAPHIC] [TIFF OMITTED] T5597.015
    
    [GRAPHIC] [TIFF OMITTED] T5597.016
    
    [GRAPHIC] [TIFF OMITTED] T5597.017
    
    [GRAPHIC] [TIFF OMITTED] T5597.018
    
    [GRAPHIC] [TIFF OMITTED] T5597.019
    
    [GRAPHIC] [TIFF OMITTED] T5597.020
    
    [GRAPHIC] [TIFF OMITTED] T5597.021
    
    [GRAPHIC] [TIFF OMITTED] T5597.022
    
    [GRAPHIC] [TIFF OMITTED] T5597.023
    
    [GRAPHIC] [TIFF OMITTED] T5597.024
    
    [GRAPHIC] [TIFF OMITTED] T5597.025
    
    [GRAPHIC] [TIFF OMITTED] T5597.026
    
    [GRAPHIC] [TIFF OMITTED] T5597.027
    
    [GRAPHIC] [TIFF OMITTED] T5597.028
    
    [GRAPHIC] [TIFF OMITTED] T5597.029
    
    [GRAPHIC] [TIFF OMITTED] T5597.030
    
    Chairman Tom Davis. Thanks very much.
    Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman, and thank you for the 
opportunity to be here and speak to the committee. I'm pleased 
to be here today with my colleague Paul McHale and with 
Generals Blum and Love to discuss the role of the National 
Guard in overseas and homeland operations.
    Our Guard and Reserve make up 46 percent of our military, 
or some 1.2 million service members. Since September 11, we 
have mobilized a total of 340,000 service members. This equates 
to 40 percent of our force, and it's the largest mobilization 
since Korea. Today as we meet, there are over 165,000 Reserve 
and Guard members that are mobilized. Although 60 percent of 
our Reserve force has not been touched, we share everyone's 
concerns about the same thing, and that's the stress on our 
force.
    Just as the active force is the first to deploy in support 
of U.S. operations abroad, the National Guard is often the 
first military force to deploy in support of most homeland 
security requirements. National Guard is a citizen soldier 
force that can be activated by the Governor in support of State 
emergencies and also Federalized to support national 
contingency requirements. A Governor can deploy National Guard 
under State Active Duty or upon approval of the Secretary of 
Defense in Title 32 of the U.S. Code, National Guard can of 
course be Federalized under provisions of Title 10, U.S. Code. 
This unique triple status makes the National Guard a cost 
effective, flexible force that can be employed in a variety of 
circumstances.
    The Guard's capability was demonstrated in the aftermath of 
the September 11th attacks. Even after the attacks, as we have 
heard and know, the National Guard responded, National Guard 
assets took to the skies to secure our air space, and local 
Guard forces were directly sent to the World Trade Center and 
the Pentagon to assist with security and recovery efforts.
    Shortly thereafter, the President asked the Governors to 
use their Guardsmen to secure airports at Federal expense. They 
responded in a matter of hours by deploying Air Guardsmen in 
Title 32 status at over 440 airports. In addition, many of our 
Governors ordered our Guardsmen in State Active Duty to secure 
critical infrastructure facilities, such as bridges, power 
plants and government buildings. Many of those State security 
missions continue today.
    Our National Guard personnel were activated in 12 States 
under Title 10 to augment security along our Nation's borders. 
Their missions ensure that the commerce continued to flow while 
the vital entryways were protected. Today, there are over 
100,000 Air and Army National Guard men and women mobilized in 
support of Operations Noble Eagle, Enduring Freedom and Iraqi 
Freedom. They are flying air patrols, performing force 
protection duties here in the United States, flying refueling 
missions over central Asia and on the ground in both Iraq and 
Afghanistan. As expected, the National Guard continues to 
conduct all missions in an exceptional manner.
    The fight against terrorism and the protection of our 
homeland will be protracted endeavors, much like the cold war. 
To that end, many outside policy experts, independent panels 
and studies have advocated expanding roles for the National 
Guard in homeland security. Some have even suggested that the 
National Guard should be reoriented, re-equipped, and retrained 
solely for the homeland security mission.
    The reality is that there has been no recent national 
security change that justifies the need to establish a separate 
role for the National Guard to perform homeland security 
related missions under new statutes and administrative 
guidelines. There are already sufficient legal mechanisms in 
place that enable State and territorial Governors to employ 
their National Guard forces and support local authorities to 
meet a wide range of existing missions.
    The National Guard is an integral part of the Air Force and 
Army total force mission capability. Their roles are vital to 
the survival of this Nation. The position of the Department of 
Defense is that the National Guard will remain a dual mission 
military force.
    This concludes my statement. Thank you very much, Mr. 
Chairman.
    [The prepared statement of Mr. Hall follows:]

    [GRAPHIC] [TIFF OMITTED] T5597.031
    
    [GRAPHIC] [TIFF OMITTED] T5597.032
    
    [GRAPHIC] [TIFF OMITTED] T5597.033
    
    [GRAPHIC] [TIFF OMITTED] T5597.034
    
    [GRAPHIC] [TIFF OMITTED] T5597.035
    
    [GRAPHIC] [TIFF OMITTED] T5597.036
    
    [GRAPHIC] [TIFF OMITTED] T5597.037
    
    [GRAPHIC] [TIFF OMITTED] T5597.038
    
    [GRAPHIC] [TIFF OMITTED] T5597.039
    
    [GRAPHIC] [TIFF OMITTED] T5597.040
    
    [GRAPHIC] [TIFF OMITTED] T5597.041
    
    [GRAPHIC] [TIFF OMITTED] T5597.042
    
    [GRAPHIC] [TIFF OMITTED] T5597.043
    
    [GRAPHIC] [TIFF OMITTED] T5597.044
    
    [GRAPHIC] [TIFF OMITTED] T5597.045
    
    [GRAPHIC] [TIFF OMITTED] T5597.046
    
    [GRAPHIC] [TIFF OMITTED] T5597.047
    
    [GRAPHIC] [TIFF OMITTED] T5597.048
    
    [GRAPHIC] [TIFF OMITTED] T5597.049
    
    [GRAPHIC] [TIFF OMITTED] T5597.050
    
    [GRAPHIC] [TIFF OMITTED] T5597.051
    
    [GRAPHIC] [TIFF OMITTED] T5597.052
    
    [GRAPHIC] [TIFF OMITTED] T5597.053
    
    [GRAPHIC] [TIFF OMITTED] T5597.054
    
    Chairman Tom Davis. Thank you very much.
    General Blum.
    General Blum. Good morning, Chairman Davis and other 
members of the committee. Thank you for the opportunity to 
address this body this morning. I ask that my written testimony 
be entered into the record.
    Chairman Tom Davis. Without objection, so ordered.
    General Blum. As we appear here this morning before you, 
there are 149,000 citizen soldiers and airmen employed all over 
the globe in the current global war on terrorism. For the last 
2\1/2\ years, since September 11, the National Guard has 
maintained and sustained that level of contribution to the war 
fight, both here at home and abroad. The National Guard is no 
longer questioned about its relevance. Today our worst critics 
can only call us over-used or essential to the safety and 
security of our Nation.
    The modern day National Guard has been in the homeland 
defense business now for 367 years. Our homeland defense 
efforts actually predate us as a Nation. We plan to remain in 
that effort and we call that ``job No. 1'' or ``priority No. 
1.''
    But defending the homeland is not always done only here at 
home. Some of that homeland defense has to be conducted, to use 
a sports analogy, as an away game, or a scheduled away game, 
where you see us participating with our Active Duty 
counterparts and the other Reserve components in a joint, 
multinational, interagency and intergovernmental effort 
overseas in Iraq, Afghanistan, Kosovo, Bosnia and other places 
in the world.
    We have to change the National Guard, however, because it 
is not exactly optimized for the current threat that we're 
facing right now and future threats that we foresee on the 
horizon. As the modern day National Guard, we can answer no 
less calls by our Governors to respond to catastrophic events 
created by either Mother Nature, man-made accidents or acts of 
terrorism here at home.
    But we have to change the National Guard, the way we train 
it, organize it, and most importantly, the way we resource it, 
so that it can be an operational Reserve force that can be used 
in a joint and expeditionary overseas war fight to supplement 
our active components when necessary. We are not structured 
correctly to do that today and we are working very hard to move 
as fast as we can with a great sense of urgency to become a 
relevant, ready, reliable and accessible force that is needed 
by our combatant commanders around the world.
    The Congress, and its National Guard and Reserve Equipment 
Account, will remain a very essential tool in helping us 
accomplish this effort. As you heard Governor Pataki say, and 
the two previous Secretaries that have testified before me in 
their opening statements, I am proud to tell you that the 
National Guard has met every requirement that it has been asked 
to perform since September 11 and even before that. Service in 
the National Guard has always been honorable, but it is 
particularly rewarding today, because we are truly defending 
our Nation, our way of life, our liberties, our form of 
government, and our future. And we're very proud to stand and 
answer the call to do that.
    But to do this, I have to tell you, we are committed to 
transformation. We are changing the Guard from what it was 
designed to do what it needs to be designed to do today. We are 
transforming the Guard today to be a more joint and effective 
organization from the very top to the very bottom, building it 
from the bottom up, and that's the essence of the Joint Force 
Headquarters that were described by Governor Pataki and the 
Secretaries. We are developing capabilities that will be needed 
to defend the homeland here at home and to support combatant 
commanders overseas in the war-fight outside our Nation's 
borders.
    We want to give better predictability to our soldiers, to 
their families, to their employers, as you heard discussed. And 
we've built a model for this that we think will accomplish 
better predictability. Soldiers, their families and employers 
will know on a more routine basis when they can expect to be 
called, how long they can expect to be deployed and when they 
will return home and then how soon again they will be asked to 
answer the call for another extended duration deployment.
    We are meeting the needs of our elected officials and our 
uniformed leaders. We are meeting the mandate to operate as a 
seamless organization that can perform both the State mission 
and the Federal mission and do them simultaneously if necessary 
and to be able to do this in a joint, interagency, 
intergovernmental or multinational environment if required. The 
National Guard is focusing so that it ensures that every 
Governor and every combatant commander gets the right force mix 
from the National Guard: the right kinds of units with the 
right kinds of capabilities; modern equipment that is 
interoperable, and beyond interoperable--or actually 
interchangeable parts with our active components, whether it be 
Air Force or Army, Air National Guard or Army National Guard. 
We need to redistribute these capabilities so they are resident 
in every State and territory of this great Nation. We are 
transforming, along with the Army and the Air Force. This is 
not an independent effort. We are shoulder-to-shoulder on this. 
There is no daylight between the National Guard and the active 
components as once existed.
    The Army recognizes that there are 18 divisions in the U.S. 
Army; 10 on Active Duty, 8 in the National Guard. The U.S. Army 
hopes to have 84 transformed brigades, 34 of these brigades 
will be resident in the Army National Guard. We are similarly 
full partners with the U.S. Air Force and their initiatives to 
modernize and transform and develop modularity, so that the Air 
National Guard and the Army National Guard can truly be plug 
and play elements of our Active Duty counterparts.
    The bottom line is, your National Guard is committed to 
doing what is right for the United States of America. I look 
forward to answering your questions. Thank you.
    [The prepared statement of General Blum follows:]

    [GRAPHIC] [TIFF OMITTED] T5597.055
    
    [GRAPHIC] [TIFF OMITTED] T5597.056
    
    [GRAPHIC] [TIFF OMITTED] T5597.057
    
    [GRAPHIC] [TIFF OMITTED] T5597.058
    
    [GRAPHIC] [TIFF OMITTED] T5597.059
    
    [GRAPHIC] [TIFF OMITTED] T5597.060
    
    [GRAPHIC] [TIFF OMITTED] T5597.061
    
    [GRAPHIC] [TIFF OMITTED] T5597.062
    
    [GRAPHIC] [TIFF OMITTED] T5597.063
    
    [GRAPHIC] [TIFF OMITTED] T5597.064
    
    Chairman Tom Davis. Thank you very much. General Love.
    General Love. Mr. Chairman, distinguished members of the 
committee, on behalf of General Everhard and the men and women 
of the U.S. Northern Command, thank you for the opportunity to 
be here to discuss the National Guard's role in the vital 
issues of homeland defense and homeland security.
    As you've heard from Secretary McHale, Secretary Hall and 
Lieutenant General Blum, every Department of Defense office and 
headquarters charged with defending our homeland has looked 
very carefully at the role the National Guard should play in 
deterring and preventing attacks on our homeland and mitigating 
any attacks that might occur. The National Guard Bureau, under 
the guidance and direction of General Blum, has begun a number 
of what I believe to be critical initiatives to respond to the 
realities of our post-September 11 world.
    Historically, the National Guard headquarters in each State 
has largely acted to fulfill the services and needs to 
organize, train and equip airmen and soldiers to fight our 
Nation's war somewhere other than in our homeland. It was 
always an additional mission to provide Guardsmen to meet the 
needs of their States in responding to natural disasters. That 
response seldom called for skills other than those war-time 
training had already provided.
    All of our assumptions regarding the use of our core war 
force and Reserve were predicated upon the United States having 
and retaining the initiative as to where to fight and when to 
fight. This is not the case with the global war on terrorism. 
We no longer have the initiative, and we must be prepared to 
respond anywhere within our homeland, knowing that any delay in 
that response may be a loss of lives, and those are American 
lives.
    The National Guard has deployed in 3,300 locations across 
our Nation. Wherever a terrorist attack may occur, it is likely 
that the National Guard will be the first military force on the 
scene. The response to a terrorist attack will not be analogous 
to the response to a flood. It will require specialized 
training at a corporate as well as a unique command and control 
structure that is responsive to the realities of a WMD attack.
    By any measure, this change is through transformation. The 
National Guard headquarters in each State must now deal with 
its historic roles to organize, train, equip and deploy, it 
must now be an operational headquarters that provides not only 
a response to a crisis in their State but provides NORTHCOM and 
the Nation with a clear picture of what has happened and what 
is needed to save lives and property. We must examine closely 
the statutory authorities under which the National Guard 
responds to an attack in our homeland and how best it may be 
utilized to prevent those attacks.
    We at NORTHCOM are looking closely at changes that may be 
necessary in Title 32 of the U.S. Code. We believe that certain 
circumstances may dictate that National Guard units should 
perform homeland defense or homeland security duties in a 
Federal status other than Title 10. It may be far more 
effective for the Guard to remain under the command of the 
Governor of a State as opposed to being Federalized and placed 
under the command of NORTHCOM. Guardsmen know the local 
territory, know the local first responders, exercise with those 
who will be engaged on the part of the State emergency response 
system, and under Title 32 utilization, can be accessed far 
more quickly.
    Response in the homeland is all about speed. We cannot wait 
for help from afar if there is help close at hand. We must 
train and equip that help so it can offer the kind of 
assistance that is needed and so it can do so with proper 
training and equipment. If the mission is a Federal mission, we 
must find a way to budget for that mission and make those funds 
available to a Governor to pay his or her Guardsmen.
    Of course, States must assure the Congress that its 
appropriations are being used as it directs. But that's not a 
complicated undertaking. The Guard performs counter-drug 
missions in a similar manner, and that program has worked well 
for 15 years.
    The war on terrorism demands that we look for innovative 
ways to utilize those forces that are closest to any crisis. 
That said, it is not really innovative at all. The National 
Guard has been responding to crises in their communities for 
more than 367 years, since 1636, when the Massachusetts Militia 
mustered in December of that year in Salem.
    Mr. Chairman, thank you for the opportunity to testify 
today and thank you and your colleagues for your continued 
commitment to armed forces.
    [The prepared statement of General Love follows:]

    [GRAPHIC] [TIFF OMITTED] T5597.065
    
    [GRAPHIC] [TIFF OMITTED] T5597.066
    
    [GRAPHIC] [TIFF OMITTED] T5597.067
    
    [GRAPHIC] [TIFF OMITTED] T5597.068
    
    Chairman Tom Davis. Thank you very much.
    I thank the panel for your testimony. We will move into 
questioning. We'll start first with the gentleman from Indiana, 
Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman.
    I first want to make sure I get a couple of comments on the 
record, if we have to get the answers written, I'd appreciate 
it. First, I want to thank Secretary McHale for his comments on 
narcotics. It's impossible to do that task without the 
assistance of the Department of Defense. On JTF6, there is an 
interrelationship where the training of our Guard and Reserve 
and military component is absolutely essential to our south 
border.
    If we're long-term going to protect our homeland security 
on the south border, I mean, right now a million people are 
making it across. That's why we need immigration reform, we 
need a number of things. But the bottom line is, we are not 
secure at all there. And without your help, it would be 
inconceivable even to do it.
    I want to raise again, and we need your particular help, 
we've raised this with the Department of Defense, in the Barry 
Goldwater Range in the southwest part of Arizona, we have a 
problem with, we don't have aerostat protection, we have high 
yield monitoring that can feed in, but we need low level. The 
U.S. Customs, which is now your homeland security, wants to fly 
planes there in a 5 mile radius, like they do the rest of our 
border, but have not because it's an Air Force training range.
    But the jets shouldn't be that close to the international 
border anyway, or we'd have a problem. We need to get this 
worked out. We have repeatedly been told, well, we're working 
on it, but we need a solution, because what's going to happen 
is, we squeeze other parts of the border, illegals, not to 
mention narcotics trafficking, is going to push into that 
range. And the first one that gets killed, you are going to 
endanger your entire training facility there. We have to secure 
that portion of the border, not only for other reasons in the 
United States, but for even keeping our range open. We really 
need your help on the Air Force range. But I thank you for 
raising the narcotics issue.
    I want to mention a couple of other things, and then if the 
chairman indulges, maybe you can raise it. I have heard from 
the Guard and from the manufacturer that the Humvees that the 
Guard takes over to Iraq are being left there because of 
shortages of the Humvee, and I want to know if this is true, 
because it's going to long term impact our training with Guard 
people in the States if we're having to leave the Humvees in 
Iraq. If it's true, which we have heard from a number of 
different people in a number of different places, then are you 
requesting more Humvees for Guard and Reserve training?
    Second, I was pleased to hear that you are trying to get 
better at communicating to our groups long term whether they're 
going to be deployed again, not only the first time. But I want 
to raise a couple of questions. My understanding is that 60 
percent have not been utilized. A logical question would be, 
before others go back, will that 60 percent be utilized, or are 
we talking about some of these units didn't have, didn't get 
100 percent utilized and the 60 percent of the Guard that 
hasn't been utilized in fact may be in that unit, and if that 
unit's called up, they may not be utilized again.
    In other words, I just had a group that's been forward 
deployed of 700 Army Guard in Fort Wayne, IN that was a 
specially trained battalion. Are we adequately communicating? 
Will that group be called up again because of its special 
training? I have a Reserve group that is going up over to 
Afghanistan, they may already be in flight, it's within the 
next day, that they haven't been forward deployed since Alayat 
Gulf. But they are the only artillery ammunition support group 
going into Afghanistan, in place of all the other units on the 
ground.
    It seems to me, if our premise is correct, that many of us 
feel that the war on terrorism is not going away and we are 
going to use Guard and Reserve, certain specially trained units 
for short need may be facing some serious redeployment, even if 
you have 60 percent that aren't. Could you elaborate on that, 
because we need to be able to look at, should we have specially 
targeted benefits for those who are higher risk, how do we 
communicate this, if you join certain units? Because it doesn't 
seem to be an even deployment list in the combat zone.
    Mr. Hall. I certainly would take a couple of them.
    You hit upon the exact problem that we have. As we analyzed 
the force over the past 19 months that I've been there, we have 
discovered that we have used about 28,000 of our people over 
and over again, two, three and four times. And that's about 3.3 
percent of our force. But they're in specialties like civil 
affairs, military police, air traffic control. So it is very 
clear to us that we need to rebalance.
    And within that 60 percent that we mentioned are many of 
the specialties that are not required today. So we have an 
excess of artillery. So the services are all recommitted to 
balancing 100,000 billets and taking the specialties that were 
targeted toward the cold war that are not used in today's 
warfare, moving these over, building a bigger base so that we 
don't have to continually call up the same people all the time.
    As of this year, we're about halfway there. We have 50,000 
billets, 10,000 in 2003, 20,000 in 2004 and 20,000 in 2005. We 
have another 50,000 to go, and the services are moving as fast 
as they can to convert those kinds of specialties, and one of 
the areas is excess artillery. So we're concerned about that. 
We want to minimize the stress, and we certainly, every time we 
mobilize a unit, one of the things my office asks is, when were 
they mobilized before, how long ago and are there other 
alternatives we have other than remobilizing them, either 
through other services, through the joint solutions.
    So that is always part of that equation. We want to reduce 
that stress on the force.
    With respect to the Humvees, I think you are absolutely 
right, that there are ones that are being left there. I think 
it's a question that all the chiefs, including General Myers, 
have looked at. If there are not enough, do you want them where 
the actual combat was going on, rather than the training. The 
answer is, you'd like them both places. As you know, the 
industrial base is pushing as hard as it can to get the armored 
Humvees out. But right now they are kept there, so that the 
people participating in combat can have them. We certainly 
would like to have them at the national training center and 
other places, and we're moving toward getting those for 
training.
    Mr. Souder. I want to clarify something for the record 
there, because this is important to Members of Congress. If 
somebody, the AM General facility that makes the Humvees is at 
the edge of my district, it's not in my district, but my 
district is the biggest parts supplier. They can produce more. 
They can produce 150 more a month now, up-armored. The question 
is, are you going to allocate the funds to do that and is the 
administration going to request that.
    Mr. Hall. I will certainly take that for the record, sir, 
that they have that capacity. And I don't know if General Blum 
has any comments on the Humvees or not.
    General Blum. My comments on the up-armored Humvees would 
be this. The National Guard has shipped overseas every single 
up-armored Humvee that we controlled in the United States of 
America, so that the soldiers in harm's way have the best 
protection to perform their mission. I don't want to see an up-
armored Humvee in the United States of America until every 
single one that's required overseas in the warfight is 
delivered into the warfight.
    I cannot speak to what AMC can produce or what the Congress 
wants to provide in the way of funds and who's going to request 
it. But I will tell you, with the assets that I control, I put 
the protection of soldiers No. 1, and I put that protection in 
theater where they need the protection. Thank you.
    Chairman Tom Davis. Thank you very much. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    D.C. National Guards, the Guardsmen trucking company where 
we lost one man, came home yesterday, we had a big ceremony, 
and I am one of their greatest supporters, have great 
appreciation for them. I'm going to ask Mr. McHale to help me 
to get for the District of Columbia what Mr. Pataki indicated 
in his testimony has been so helpful to him, and I quote from 
you, we need to ensure that troops activated under Title 32 
status remain under the authority and control of the State's 
Governor to ensure maximum flexibility and effective 
deployment.
    The D.C. National Guard comes totally under the President 
of the United States, it's as if this were 1800. It's really 
dangerous today to have a situation in the Nation's Capital 
where the kind of flexibility that Mr. Pataki testified to is 
not even possible here. I have a bill to put the National Guard 
under the mayor. At least this city, which must be target No. 1 
in the world, ought to have the kind of flexibility as Mr. 
Pataki. I'm going to ask you to work with my office to try to 
get some of that flexibility here in the Nation's Capital, 
where more is at stake than the, not only the 600,000 people 
who live here, but the entire Federal presence as well. That 
flexibility is simply not available to us.
    My question really goes, however, to the mix. I very much 
appreciate what you are trying to do with the National Guard. 
It's almost like zero budgeting. Gentleman, I think you may as 
well start over again. It's the old concept of the militia, 
which we are operating under, just lay aside, begin in the 
world of post-September 11, particularly since I understand 
that within a few months you may have as many as 40 percent of 
the National Guard in Iraq. Nobody contemplated that, even a 
year ago.
    In Mr. Pataki's testimony, by the way, the GAO graph 
showing this escalation of the Army National Guard--nobody 
believed that these men and women were prepared for this kind 
of escalation in combat. And in contrast to your testimony, the 
GAO, let me read from the GAO, it says, DOD has not fully 
defined requirements, readiness standards and readiness 
measures for the homeland security missions it will lead or 
support. The Guard's readiness, preparedness specifically for 
homeland mission is unknown.
    Then it says, this is my concern, based on concern that 
continuing deployments reduce the Guard's preparedness and 
availability for all its homeland security and natural disaster 
missions. Now, Mr. Pataki was brought here this afternoon, he 
is totally unrepresentative of the Governors of the United 
States at this point, wonderful testimony. But there's no doubt 
he called General Blum's name over and over again, there is no 
doubt that following September 11 you were careful about what 
you did with the National Guard in the State of New York. And I 
hope that the next time we will have a more typical Governor 
here, so we can really find out what is happening with the 
Governors.
    At least for example, in neighboring New Jersey, 70 percent 
of the National Guard has been deployed. In this city, 40 
percent have been deployed. These folks are in Iraq. Now, the 
Governor testified proudly since he's been Governor, he's been 
Governor for 2 terms, 8 natural disasters, 4 plane crashes, 11 
crippling blizzards, 2 major wildfires, etc. We just had a 
terrible hurricane, Hurricane Isabel. It is very hard for me to 
believe we had a representative Governor here. He would be able 
to say, particularly since there's no doubt he wouldn't have 
been given the special consideration that New York was entitled 
to, that he could handle any disaster that came forward.
    I need to know, particularly in light of what the GAO has 
said, even about the definition of requirements. I need to 
know, I find a real contrast with you on the testimony. I need 
to know what we're supposed to do on the home front, when these 
are deployed in Iraq, we've got them deployed also for homeland 
security, and then they're supposed to deal with disasters as 
well. I still have no understanding of how this in fact is 
going to occur, how long it will take you to get to this 
rebalanced National Guard, or how a typical Governor is 
supposed to operate during this period when that Governor 
happens not to be of New York State.
    Mr. McHale. Congresswoman, if I may, what I'll do is divide 
your question into a couple of different parts. A portion of 
your question falls within the area of responsibility that has 
been assigned to me, a portion of the question is really within 
the area of responsibility assigned to Secretary Hall and 
General Blum. But let me take the part for which I am 
accountable.
    With regard to the command and control of the D.C. National 
Guard, the first part of the comment that you raised, in order 
to achieve a closer partnership between the Department of 
Defense and the operational requirements assigned to the D.C. 
National Guard, there is an ongoing review, not yet completed, 
within the Department of Defense that would consider the 
possibility of transferring that responsibility from one 
individual to another.
    You correctly noted that ultimately the President of the 
United States is responsible for the Federal missions assigned 
to the D.C. National Guard. And----
    Ms. Norton. And the President can nationalize any National 
Guard.
    Mr. McHale. I'm sorry?
    Ms. Norton. And can nationalize any National Guard he wants 
to.
    Chairman Tom Davis. The gentlelady's time has expired, so 
answer the question and we need to----
    Mr. McHale. I'll make it very brief, Mr. Chairman. What's 
underway right now is the possibility of transferring the 
responsibility from the current executive agent, who is the 
Secretary of the Army, and who has had historically the same 
responsibility with regard to the D.C. National Guard that a 
Governor of a State would normally have with regard to his or 
her National Guard.
    The person or the office that is being considered is a 
transfer from the Secretary of the Army to my office. My office 
was created by Congress last year. It has overall supervision 
of all the homeland defense responsibilities of the Department 
of Defense. And there is a possibility that responsibility 
would transfer from the Secretary of the Army to me or to my 
successors.
    I have met with Mayor Williams, I have talked to him about 
the responsibilities in the D.C. Guard. We are eager to make 
that an effective partnership.
    Second, with regard to homeland defense mission, we agree 
with the GAO assessment that those missions have not yet 
formally been defined within the necessary documents. However, 
that's because we're new. NORTHCOM is new capability, my office 
is brand new. What we have done operationally is define those 
missions, and pursuant to the strategic planning guidance 
that's been reviewed by the Department of Defense, by June of 
this year we must develop and publish a comprehensive strategy 
for homeland defense, which in turn will define the 
requirements that are necessary to support those missions.
    Frankly, there won't be many surprises. The missions that 
we will be including are important missions that we have 
developed during the past 2 years. The air caps that protect 
our air space, critical infrastructure protection and the 
involvement of the National Guard in meeting that mission 
requirements, the CSTs, 32 of which we now have, an additional 
23 I believe are scheduled over the next 2 years, including 12 
within the next year.
    The missions are well understood by NORTHCOM. Many of them 
are being executed today. And the document reflecting the 
development of those missions will be published by June of this 
year.
    Chairman Tom Davis. Thank you very much. Let me----
    Ms. Norton. Could the other part of my----
    Chairman Tom Davis. The chairman is going to make a 
comment. We asked a number of Governors to appear, including 
the Governor of New Jersey, Ms. Norton. We asked the Democratic 
Governor of Michigan to appear as well. We asked the Democratic 
Governor of Virginia to appear. We would have had a panel had 
we had--I'm very grateful we had Governor Pataki, because not 
only did he have September 11, he's one of the longest serving 
Governors in the Nation, he's had blackouts, he's had 
transportation, weather issues and everything else. And I think 
we're--I take exception to that statement. He came here on his 
own accord, and I think sitting here and bashing him is really 
not appropriate.
    Ms. Norton. Mr. Chairman, I didn't bash----
    Chairman Tom Davis. The gentleman from Virginia.
    Ms. Norton. You have made a personal attack on me----
    Chairman Tom Davis. I was answering something, Ms. Norton. 
We gave you 5 extra minutes.
    The gentlelady from Tennessee.
    Mrs. Blackburn. Thank you, Mr. Chairman, and thank you to 
our panel. I appreciate your willingness to come and visit with 
us on these issues today.
    The health of the National Guard, the strength of the 
National Guard is very important to all of us. I have two 
questions. My first question I am going to direct to Mr. Hall 
and General Blum and then, Mr. McHale, I will come to you with 
my second question. I do want to be brief in consideration of 
everyone's time.
    One of the things I am very concerned about, Mr. Hall and 
General Blum, is the 168th out of Lebanon, TN, which is 
military police. We have talked a lot this morning about 
predictability, about readiness and the quality of life with 
the families. And Governor Pataki was very forthcoming with 
what he's doing to address those issues in New York.
    The 168th out of Lebanon was activated in December 2002. 
They were deployed in June 2003, and they are the group that 
just got extended for another 90 to 100 days. And this is a 
great concern to us because of the families that are involved 
and the length of this deployment. We know that retention and 
readiness is important. But I think, I'm very concerned for the 
families of the 168th and how this lengthy deployment does 
affect them.
    What I want to know is what you plan to do as you 
restructure that will keep that from happening again. Then Mr. 
McHale, for your answer, the question I would like for you to 
answer for me, as we look at this restructuring and we talk 
about having missions that are complementary, mutually 
reinforcing, the one thing we've not focused on a lot in this 
hearing is, going forward with the implementation, what is the 
estimated cost of stepping up the readiness. And as we talk 
about cost, are you looking at a 5-year frame or a 2-year 
frame? Have you given an estimate to the restructuring on the 
increased time and what that increased training time is going 
to cost us? The different units, the equipping of these and 
how, what that cost is going to be.
    So backing it up, Mr. McHale, I'll ask you to speak to the 
cost, but first, Mr. Hall and General Blum, if you will address 
the restructuring, to keep from happening what is happening 
with the 168th.
    Mr. Hall. We are all very concerned with having to have 
that extension. We worry about the families. I spent 34 years 
in the military, deployed all the time as an Active Duty 
person, and I worried about my family at that point, and we are 
continuing to do that.
    That decision was made because the combatant commander felt 
that he needed to have it, and as Secretary Rumsfeld and 
General Myers said, we have to provide him the force. So it was 
a very difficult decision. We have over 6,000 Guardsmen and 
reservists, including the ones you mentioned, who are involved 
in the 20,000, both the Guard and the Army Reserve are having 
town halls, meeting with the families, dedicated to every month 
reconnecting with the families, trying to help them and give 
them as much assistance as we possibly can.
    What we're doing to prohibit this or to mitigate it for the 
future is what I mentioned earlier, we are restructuring, and 
in this case, building more military police, 18 provisional 
battalions, I'll let General Blum talk about it, from excess 
capacity and artillery and others. We want to build a larger 
base so that we don't have to go back and touch the same groups 
or extend them.
    So we're accelerating that rebalancing and building more 
military police, because we know for sure, in conflicts in the 
future, military police are going to be needed and we need to 
build a larger base. So that's a major focus point, along with 
civil affairs. I'll ask General Blum if he will add something.
    General Blum. Congresswoman Blackburn, you're absolutely 
right. Nobody liked what happened to the 168th. Nobody wanted 
that to happen. Unfortunately, we're in a war where we don't 
control all of the conditions. Unfortunately, they have a 
special skill set that is in short supply and was needed a 
little bit longer in theater to keep the mission in theater 
from becoming at risk.
    Those soldiers, because they are so superb, because they 
are so well trained, because they have such good situational 
awareness and have been conditioned to the environment, they 
are hugely effective and very valuable to the combatant 
commander on the ground. The combatant commander asked for a 
very small number. Now, if you're the one that is, that number 
is one too many. If you're the family member or the employer or 
the service member that's been extended, then even that one, 
that's one too many.
    But it's a very small number of units and National 
Guardsmen that have been asked to extend beyond the already-
extended 1 year boots-on-the-ground policy. They will be there 
as short as possible. I am in communication with the ground 
commander almost weekly to make sure that they are closely 
examining the absolute necessity and requirement for the 168th 
to stay in theater. They will be released as soon as they can 
possibly be released.
    To answer your question directly, how do you keep that from 
happening again, I have to develop the right kind of 
capabilities in the right numbers of units distributed across 
the Nation so that Tennessee doesn't have to pay or bear an 
unfair burden in the defense of this Nation. And right now 
we're not set up exactly perfectly to optimize our ``shelf 
stock,'' to use a civilian term. I need more ``shelf stockage'' 
of the right kinds of units and capabilities in the right 
modularity. We're attempting to develop as fast as we can.
    We have converted 18 artillery units from around the 
country and this month they will be certified as military 
police units. Then they will be available to go into the 
rotational base, so that I can get, when the 168th comes home, 
I can look those citizen-soldiers in the eye and tell them and 
their families and their employers they will probably not have 
to face another extended duration overseas call-up for about 5 
or 6 years. That's the best I can do. I won't have that perfect 
probably for another 24 months. But we will be in a much better 
position by the end of this month to provide additional MPs 
into subsequent rotations, which means to the 168th they don't 
have to go back so soon.
    Chairman Tom Davis. Thank you. The gentlelady's time has 
expired.
    The gentleman from California, Mr. Lantos.
    Mr. Lantos. Thank you very much, Mr. Chairman.
    Before I raise my point, let me express my admiration for 
the work all you gentlemen are doing. You know we are fully 
supportive of what you're doing.
    In the 24 years I've served in this body, I have been 
involved in many policy disputes. But I've never had an 
inexplicable dispute with an administration spokesperson that I 
have in this instance. So let me try to frame my question with 
great respect, but in the hope that I will get a straight 
answer.
    The National Guard Association of the United States wrote 
me a letter signed by Richard Alexander, Major General retired, 
thanking me for introducing H.R. 1345. I will just read a 
paragraph from this. Thousands of Guardsmen and women are 
currently being called to Active Duty in support of the ongoing 
operations in Iraq, supporting the global war on terrorism, 
defense of the homeland in addition to the multitude of other 
State and Federal operations and missions normally performed.
    Many members of the National Guard are experiencing 
financial hardships when they serve their country for extended 
periods of time, due to the difference of income between their 
civilian and military pay. H.R. 1345, which is my legislation, 
will help mitigate financial loss by making up the difference 
between a Guardsman, civilian and military salaries.
    Mr. Hall, since you have been the most articulate and 
vociferous opponent of my legislation, let me ask you to 
explain something to me which despite my best effort, I'm 
incapable of comprehending. You and your superiors all the way 
up to Secretary Rumsfeld are full of praise for private 
companies when they do exactly what my legislation calls for by 
the Federal Government. I have a whole list of quotations from 
a very large number of important people like yourself, 
showering praise on private companies for doing exactly what my 
legislation calls for.
    Yet, incomprehensibly and illogically, you are vehemently 
opposed to a legislation which is totally non-partisan in 
character and that would help enormously in recruitment, 
retention, morale, in every conceivable arena that you as a 
responsible officer are interested in. Now, please explain to 
me how can you praise a private company for voluntarily 
introducing the precise provision my legislation mandates the 
Federal Government to do?
    Mr. Hall. I will try and be as careful in answering your 
question as you posed it to me. And I didn't realize I was the 
most vociferous opponent----
    Mr. Lantos. You are.
    Mr. Hall [continuing]. Of yours. I didn't know I had that 
label.
    What I tried to do is to look upon this issue in a very 
broad aspect. First of all, I think it's appropriate that we 
praise those civilian employers who do this. They do not have 
Active Duty people in the same foxhole with our Guard and 
Reserve that they have to worry about. All the Reserve chiefs, 
as Mr. McHugh has said, have come over and have worried about 
the comparability of an Active Duty E-4 in a foxhole with a 
Reserve E-4 and do they receive the same Federal pay. And they 
do.
    I spent, as I said, 34 years of my life in uniform 
commanding young men and women on the Active Duty side. And we 
have to honestly worry about that in the Federal----
    Mr. Lantos. May I stop you for a second?
    Mr. Hall. Yes, sir.
    Mr. Lantos. Your logic has already left you. Because you 
are applauding the private employer who pays the salary which 
makes two people in the same foxhole getting different 
salaries. So you can't have it both ways. You can't praise 
private employers for doing exactly what my legislation calls 
for. I mean, with a straight face you can't tell me this, 
because it makes no sense.
    Mr. Hall. Well, I do applaud them and they have their own 
imperatives and their own system and they have chosen to do 
that.
    Mr. Lantos. Why don't you answer my question? You have two 
people in the same foxhole getting different salaries because 
General Electric chooses to maintain the salary while the 
person is on Active Duty. And you are praising General Electric 
for creating presumably a problem for you.
    Mr. Hall. I have answered it in that the Federal pay for 
that Active Duty and that Reserve soldier needs to be the same 
and it is the same, and that is my area to worry about. And 
remember, one-third of our Guardsmen and reservists lose some 
amount of pay. Two-thirds have the same amount or more.
    And the average loss, and I know we focus on what is in the 
newspaper, of tremendous bankruptcies, tremendous loss, that is 
not the case. It's between $3,000 and $4,000. Now, that's an 
amount of money, we worry about that, but it is not where each 
and every one of these soldiers are losing their homes and 
going bankrupt. We worry about that. And there are possible 
solutions, such as insurance.
    But we need to worry about targeting the full range of 
compensation to those young men and women. The Guard and 
Reserve chiefs all together and the active chiefs have stated 
their position, that in considering the overall compensation, 
and I also do not believe this is the major recruiting and 
retention problem we have, this particular pay. There are 
others that, if we have limited funds, we need to look at. I 
think I've answered it the way I honestly feel based on my 
background service and my position now.
    Mr. Lantos. Well, let me just pursue it a bit.
    Chairman Tom Davis. The gentleman's time has expired.
    Mr. Lantos. If you'll allow me, Mr. Chairman.
    Chairman Tom Davis. You can ask unanimous consent to 
increase your time.
    Mr. Lantos. I do.
    Chairman Tom Davis. Any objection to giving the gentleman a 
couple, 2 additional minutes? Without objection.
    Mr. Lantos. The notion that the current situation hurts 
only one-third of the people who are serving our country, and 
that can be dismissed so cavalierly, is absolutely 
preposterous. We are passing legislation here that helps 1 
percent of our population. You're talking about one-third of 
your manpower or person power which is being hurt by this 
idiotic policy. It's an idiotic policy, and I'm using the term 
advisedly.
    And for you to dismiss it, that it impacts only one-third 
of the people, you need to give me an answer. You don't give a 
damn about that one-third?
    Mr. Hall. I don't dismiss it cavalierly. I've told you how 
seriously I view the compensation for our young men and women. 
And we look at it in a broad view. I understand yours, and I 
think I've answered it adequately about my concern for our 
young men and women.
    Mr. Lantos. Well, let me for the record state, I think your 
answer totally lacks logic and internal consistency and is 
totally unacceptable.
    Mr. Hall. Yes, sir, I appreciate that. Thank you.
    Chairman Tom Davis. I thank the gentleman. The gentleman 
from Virginia, Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman and Congressman, 
Admiral, General, General, thank you for being here today on 
what is a very difficult subject but a very important one.
    I think that as a Nation we are probably at a crossroads 
where we must make a choice on what the role of the National 
Guard is going to be. That choice should be made in the context 
of the full spectrum of tests that we expect the men and women 
who serve this country in uniform. I've been to both Iraq and 
to Afghanistan, and I have always returned home and remarked 
how it was impossible to tell the difference between the 
reservists, the Guardsmen, the Guard and the Active Duty 
forces. They look the same and they face the same threat.
    But as leaders charged with funding these troops, with 
equipping them, with training them and answering to them and to 
their families when we ask them to go into harm's way, we must 
not fool ourselves that they are the same. The Marines fighting 
outside Fallujah and Najaf right now knew from day one that 
they were being trained and equipped to some day go in harm's 
way for this country. They represent the finest combat force 
that this country has ever produced.
    Before they went to Iraq, they were specifically trained 
and equipped for urban combat. They share a warrior mind set 
that comes from walking out the door each day in uniform and 
training for war. Unfortunately, we are not always able to give 
our Guardsmen that same level of training before we ask them to 
deploy to Iraq and other places around the world.
    They do not receive that training day in and day out. If 
they receive the same equipment and training they receive it at 
the last minute and often hand me down equipment previously 
used by the active component. Their families do not see them 
walk out of the house each day in uniform and become accustomed 
to their prolonged absences and the chance that they may have 
to serve in environments such as Iraq.
    As a Nation, we must decide what the role of the National 
Guard will be in meeting both our global military commitments 
and our homeland security needs. I believe that our National 
Guard is rightfully part of our first responder equation. If we 
are going to continue to rely on the Guard to comprise 40 
percent of our Nation's military capability, we have to come to 
grips with our responsibility to train them, to equip them and 
to let them know that they are part of the team.
    We must ensure that funding levels and that of the 
authorities and scope of Title 10 and Title 32 reflect the way 
that our world has changed in the last 3 years. We must 
reevaluate our own commitment as leaders responsible for this 
crucial homeland security force and critical military Reserve 
force.
    That being said, I want to address several questions to 
you, Secretary McHale, if I might, and I hope the Chair will 
indulge me, because some of it's rather long. The Guard differs 
from the Reserve components in that it's under the command and 
control of the States. This positions the Guard for some unique 
opportunities with the States' Federal nexus. Question, does 
DOD see the National Guard's unique Title 32 activities, such 
as civil support teams, the counter-drug programs or the 
airport security missions, to be unhelpful distractions, or 
have these uses of Title 32 been meaningful contributors to the 
security of the Nation?
    Mr. McHale. Congressman Schrock, let me emphasize in the 
strongest possible terms that Title 32 has been of enormous 
benefit, not only to the Department of Defense but to the 
Nation. There are three categories in which the Guard may be 
employed, in State status or at State expense under command and 
control of the Governor, the Guard executes the missions that 
are assigned to it by the Governor. At the other end of the 
spectrum, you've got Title 10 where the National Guard is 
brought to Federal service, paid for at Federal expense and 
under command and control of the President of the United States 
and Secretary of Defense.
    Title 32 is an excellent, very flexible middle ground which 
produces tremendous utility. The expense of Title 32 is paid 
for by the Department of Defense, by the Federal Government. 
But in Title 32 status, National Guardsmen are exempt from 
posse comitatus, so they can engage in missions that are very 
close to law enforcement activities, missions that would be 
precluded for Title 10 forces. The expense, as I said, is 
carried by the Federal Government, but we have flexibility in 
terms of command and control by the Governor.
    If anything, where we are at this point is the Department 
of Defense is actively reviewing the tremendous benefit of 
Title 32 to determine whether or not that training status needs 
to be expanded in the context of the global war on terrorism 
for an increased number of missions in that Title 32 status, 
because it has proven to be so beneficial.
    Mr. Schrock. OK, then we go to the last question. How soon 
might we expect the DOD to send to Congress a proposal to 
review Title 32 and in particular, the language about training 
in Section 502(f), I think it is?
    Mr. McHale. As you point out, Title 32 status involves 
National Guardsmen who are on Active Duty, performing specific 
missions that often have been statutorily assigned. We have 32 
civil support teams, we'll have 12 more this year and 
presumably 11 more after that, based upon the assumption that 
the Congress will provide the funding for the final 11.
    In Title 32 status, we have those forces immediately 
available at Federal expense, exempt from posse comitatus, 
under command and control by the Governor. I mentioned earlier 
in response to Congresswoman Norton that we are preparing a 
comprehensive, really I think a historic homeland defense 
strategy that will be completed by June 30, 2004. I don't want 
to assume that we will necessarily ask for a statutory revision 
of Title 32, but by the end of June we will know whether or not 
such a revision would be appropriate.
    And frankly, because Title 32 is a training status in the 
context of the global war on terrorism, we need to take a very 
serious look at expanding Title 32 to cover additional 
missions.
    Mr. Schrock. So sometime around?
    Mr. McHale. I would think by the end of summer, if in fact 
we request a change in Title 32, we would know by the middle of 
summer whether such a change would be required. I don't want to 
preclude an ongoing review, but certainly at this point, it 
appears to me as if Title 32 would be appropriate for review to 
include in the future not only training missions but 
operational missions and specifically, the mission that I 
envision as being central to the future of the National Guard 
and homeland defense missions, and that is critical 
infrastructure protection. The use of National Guard 
potentially in Title 32 to defend critical infrastructure in an 
operational role within our own country.
    Mr. Schrock. Mr. Chairman, do you mind if I continue for a 
minute?
    Chairman Tom Davis. We will give the gentleman 2 additional 
minutes.
    Mr. Schrock. Paul, this question is about the possibility 
of similar operations in the future. The airport security 
mission was performed under Title 32, the Federal Government 
provided the money, the States executed the mission. This seems 
to have been a success. But subsequently, there was a need to 
use the Guard for border security, and of course for that 
mission, the Guard was taken out of State control under Title 
32 and mobilized to Federal duty under Title 10.
    Does this reflect an intent by DOD to tend toward Federal 
mobilization as the best way to use the Guard for domestic 
requirements or might such future requirements be evaluated on 
a case by case basis for execution under Title 32 or Title 10, 
as the situation would demand at the time?
    Mr. McHale. The Secretary of Defense has in the past 
indicated a preference for the use of National Guard forces, 
including in Title 32 status, rather than the necessary use, 
because of a lack of an alternative, of Title 10 forces for the 
same mission. In short, if there is a clear mission 
requirement, and we have the choice between using Title 10 
forces or National Guard forces, particularly for the missions 
that are related to counter-narcotics and the support that we 
provide to civilian law enforcement along the borders, the 
preferred course of action is to use the National Guard while 
preserving our Title 10 capabilities for overseas warfighting.
    And that's why as we look at the emerging mission 
requirement in the context of the global war on terrorism, 
there will be more, not less, for the Guard to do, including 
missions assigned in Title 32 status.
    Mr. Schrock. Thank you, Mr. Chairman. I know my time is up. 
I'd like to submit two other questions to Secretary McHale for 
the record.
    Chairman Tom Davis. I'd be happy to keep the record open 
for that. Thank you very much.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Well, you all have a very difficult job, 
and I think you've done a great job but we can always do better 
and that's what we're talking about here today.
    In this country, when people feel that something is wrong, 
it's an issue. As Members of Congress, that's why, I think 
you're getting a lot of the questioning on how long someone's 
going to be in Iraq or Afghanistan or whatever.
    What I would like to really discuss right now is the short 
term. General Blum, you said, and so far, from what I see I 
think your plan for a full spectrum force looks pretty good to 
me. But you said it would be about 24 months, I believe, before 
it's really implemented. And eventually this plan will reduce 
the burden on those already deployed and also give some sense 
of a plan and a commitment on how long they're going to be.
    I think one of the worst things you can do for anybody is 
raise expectations and then take those expectations away. But 
if we're in a war, we have to do what we have to do. That's 
what's happening now.
    Could you please tell us what you need now? Congress is in 
session now until next November or December, whatever. What 
would you like to see on the short term to help the troops on 
the ground and their families and their employers? What do we 
need? And really what we're talking about is resources, which 
means money, which means we have to encourage the 
administration to maybe reprioritize to do something in the 
short term. I'd like to hear the short term solutions based on 
what you've seen now as far as deployment, as far as dealing 
with families, all those issues that might help.
    General Blum. The first thing I'd like to tell you, 
Congressman Ruppersberger, is that there is continued strong, 
solid, unswerving support for the citizen soldiers and airmen, 
the young men and women in uniform. People are separating 
differences over what is going on, how it's being prosecuted, 
and the techniques that are being applied, separating that from 
the solid support to uniformed service members that are 
answering the call to colors, I'd like the Congress to continue 
that strong, solid support.
    Now, it is absolutely critical in an all volunteer, all 
recruited force that a strong message of support from both 
parties, from both houses, from all elected officials be 
clearly understood that service to our Nation is something that 
is honorable, that is necessary and is something that we all 
should be very proud of and supportive of. So that is the first 
thing that I would ask the Congress, to be very careful in 
their discussions and deliberations to consider the eroding 
effect that it has on the morale of soldiers that are deployed 
longer than they would like to be, away from their families 
longer than they would choose to be and put either career and 
education and lives, frankly, at risk.
    Mr. Ruppersberger. In that regard, when I was in Iraq, I 
had a conversation with a member of the Maryland National 
Guard, and he said, with all the political rhetoric we hear, 
people back home aren't mad at us, are they?
    General Blum. That's precisely the question that I don't 
want to have in their minds when they're walking the streets of 
Fallujah.
    Mr. Ruppersberger. I want to get some specifics----
    General Blum. The specifics are--I could get the specifics 
for you, and I'd be glad to leave them for you for the record. 
Because in the interest of time, it would probably be the 
better way to do it. I'll provide you that.
    If you'll put up that chart that talks about the strategic 
Reserve moving to an operational force, everything on the left 
side of this chart that's about to go up there, that was listed 
under strategic Reserve, is what is wrong with the National 
Guard and Reserve components today. They are resourced wrong 
for today. They were resourced exactly right for the time 
before September 11th. But they're not right for today.
    Mr. Ruppersberger. Resourcing being?
    General Blum. Resourcing means money for training----
    Mr. Ruppersberger. Do you have a money figure base?
    General Blum. I'll provide that for you, sir, for the 
record. It's money for retraining soldiers to reclassify them 
from what they are now to what they need to be, retrain them 
for the skill sets we need for tomorrow, not what we needed for 
yesterday. It is money for equipment that we do not have, we 
were never equipped to be an operational force, so we have all 
this cross leveling. Each time you cross level, you lessen 
what's left in the pot and cross leveling becomes more and more 
difficult.
    Last, the most important is, full-time manning. Because it 
is clearly a readiness issue. If you're going to use the Guard 
and Reserve as an operational force, you must have the right 
combination of full time soldiers matching up with part time 
soldiers. And that is clearly out of balance today and needs 
addressing.
    Mr. Ruppersberger. Mr. Chairman, could I have one more 
minute?
    Chairman Tom Davis. Without objection.
    Mr. Ruppersberger. Very quickly. There's an article in the 
Sun paper today and I'm sure throughout the country about U.S. 
reservists accused of prisoner abuse. I'm quoting in the Sun 
paper an article written by Tom Bowman and Sabar, and this is 
one of the individuals who has been charged, or the allegations 
that they were abusing prisoners. Well, by the way, if it's 
criminal conduct we have to deal with it like we deal with 
anything else. We cannot tolerate it.
    However, there are a lot of gray areas when you're at war. 
This, one of these individuals said that we had no support, no 
training whatsoever. They were in a prison camp. And I kept 
asking my chain of command for certain things like rules and 
regulations. Another individual said, I understand they usually 
don't allow others to watch them interrogate, how to go about 
interrogation. So we had no rules, no training.
    The attorney for one of the individuals told 60 Minutes II 
that the soldiers never have been charged because of the 
failure of commanders to provide proper training and standards. 
What I'm getting to really is that you have men and women in 
the National Guard who are being put in the same situation as 
career, we know that. And if they don't have the proper command 
structure and then they don't have the training, and they're in 
a situation where they make believe that they're at war and 
they are attempting to do what they need to do, I'd like you to 
address the issue as it relates to these men and women, not 
specifically, because you can't talk about the trial, but about 
that type of training, when you're put in that situation, when 
all of a sudden you're at home and you're doing your weekend 
duty, then all of a sudden you find yourself in a prison and 
now you have six individuals who are being charged that are 
saying they didn't know what to do, they didn't have the proper 
training.
    General Blum. I will not address that specific instance, 
because it's under investigation.
    Mr. Ruppersberger. I understand that.
    General Blum. But I will talk on the broad issue there, and 
I believe what I'm about to tell you to the core of my being. 
We have never as a Nation sent a force of citizen-soldiers 
overseas better trained, better prepared, better equipped, 
better led with better values and clearer established standards 
than we have sent these citizen-soldiers that are over there 
right now. I believe that deep in my heart, to the core of my 
being. I've gone and watched this training, I've participated 
in the training, I've been a product of the training, I have 
visited every single major unit that has been prepared before 
it was sent to Iraq and Afghanistan, and I have visited those 
same units in theater once they're there. And I stand on the 
record of that.
    Now, will you find some soldier who may not live up to the 
standards and the training that they received? That's possible. 
And that may be happening or may not be happening in this case, 
and that's why it's being investigated.
    Mr. Ruppersberger. In this case and other cases, we have to 
evaluate to make sure it's not training, it is actually 
criminal conduct. But I think it's important, there are a lot 
of gray areas and we're at war. It's very, very important that 
we deal with the issue of training.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you, sir.
    Mr. Shays.
    Mr. Shays. Thank you.
    I want to first say, I have tremendous admiration for all 
of you, and all of you have very excellent reputations. I would 
say to my colleague Mr. McHale that I considered him one of the 
finest Members of Congress to serve as I have served here. And 
I think it's a real blessing that you are working for the 
administration and for our country.
    When I was last in Iraq, and this is my fifth visit with my 
staff, I recently, in my capacity as chairman of the National 
Security Subcommittee, which oversees Defense and State 
Department, I recently visited Bravo Co. first of 252nd Armor 
regiment commanded by Captain Sean Moser. This North Carolina 
National Guard unit is helping secure the city of Hannakin in 
northeast Iraq. I just want to say for the record that these 
soldiers at B Co. are doing a superb job.
    But having said that, I want to say to you that the miliary 
has never made it easy for us to go and visit Iraq. When we go 
we learn things. I believe that Congress has not done the 
proper oversight job. If you had ever told me that we would 
send troops without proper body armament, I would have been 
amazed, but we did, General. If you had told me we would have 
sent them in Humvees that didn't have proper protection, I 
would have been amazed, but we did.
    Because in that company, we saw one Humvee modified by a 
kid, one modified by the soldiers in country and one not even 
modified. And then we had the basic briefing that there were 
caches of weapons throughout the eastern part of Iraq, pre-
deployed, they are constantly uncovering them. Then they had a 
3-hour briefing in Baghdad showing us how they make these 
weapons.
    And I just want to say to you as well, General Blum, I know 
these are the best trained military. But I also know first 
hand, and in the soul of my being, just as you would say, I had 
Army personnel tell us that they were being asked to do things 
they were never, ever trained for. And that's a fact. And it 
didn't happen once. It didn't happen twice. It happened 
continually.
    And for me, I didn't even know about the inadequacy of our 
Humvees until I had a community meeting in Oxford, CT, and I 
had two moms show me letters from their National Guard sons 
showing us the Humvees that were not in any way, with a kit or 
improved or not. So I just want to put that on the record. 
We're doing the best we can do, but it is a surprise to me that 
when I sent our men and women off to war I sent them in some 
cases without the best equipment.
    And I believe it's the National Guard and reservists who 
are the last in the food chain. I would like to think that in 
the future, it will never happen again. I know you make the 
best of what you can do, but for me, I thought my job was to 
make sure it was never a fair fight. I think that in some 
cases, I've put our men and women in jeopardy. And I think we 
have to just say it and then deal with it. Not to mention the 
pay problems and the benefit problems and the health care 
problems that exist for our reservists and National Guard.
    I want to understand, and the other thing I want to say, 
and I'm sorry to press this for so long, but having visited 
bases all throughout the country in previous years, I praise 
God I did, because you all told us, the people you have to get 
to sign up is not the soldier, it's the spouse of the soldier. 
If we talk about having them be gone every 4 or 5 years, I am 
going to be very surprised if we aren't going to lose a lot of 
good men and women. And not to mention our soldiers being 
forced to take anthrax against their will, which affects the 
Air Force, General Love.
    So having said that, show me why it isn't harder to be a 
National Guard and reservist, given that you've got to be 
trained to fight and hopefully do your job extraordinarily well 
and defend yourself and make sure you come home to your loved 
ones, tell me why this isn't a harder job than the active 
forces? Because you also have to be trained to do work under 
Title 32 for the States. I think it is a tougher job than the 
active forces. Tell me it's no different, or tell me in fact, 
is it harder?
    General Blum. It's harder, sir. It's been harder for 367 
years. It hasn't gotten any easier. Nobody said it was going to 
be easy. Nobody said it was going to be fair.
    Mr. Shays. We've made it harder, though.
    General Blum. That chart depicting our strategic to 
operational shift tells the story. It is not because of 
anybody's evil intent. Most of the policies, most of the laws 
that have caused the pay problems, lack of health care, the 
lack of properly equipping the U.S. Army and Air National 
Guard, properly resourcing them with full time training and 
enough money to train and operate----
    Mr. Shays. Could I just have 2 more minutes, Mr. Chairman?
    Chairman Tom Davis. Any objection? No objection.
    Mr. Shays. Thank you. I'm sorry.
    General Blum. Absolutely. All those things are true. But 
they are not by accident. They were by design. We were supposed 
to be a strategic Reserve. We did a superb job as a strategic 
Reserve. We were a great deterrent force against the Russians 
in the Warsaw Pact. That's no longer a threat.
    We now need to build an operational force, and we need, 
sir, Congress needs to reevaluate the benefits, the 
entitlements, the pay, the resourcing, the equipment and the 
full-time manning issues of the Guard, or we can't be an 
operational force the way you would like it to be.
    Mr. Shays. But to say that they've always had a harder job, 
I think it is many times harder today because of September 11th 
and the response abilities they have to train for the terrorist 
attacks which we weren't really focused on in the past.
    General Blum. Mr. Shays, we're in agreement. I agree with 
you. It's a tough job, but it's an essential and necessary job 
if we're going to defined this Nation.
    Mr. Shays. I know that. But a few years ago, we also 
decided they were going to be part of the force structure in a 
very primary way. I feel like in a way this is a debate we did 
not have before we sent them to Iraq. I have a bit of concern 
that it has not turned out quite the way we had hoped.
    I just want to make my point, and General Love, I'd like 
for you to respond as well.
    General Blum. Before he does, I just want to finish my 
point, if I may. I personally and professionally feel this 
Nation should never go to war without the National Guard. When 
you call up the National Guard, you call up America. And we 
should never, ever send a force overseas that Congress and this 
Nation can walk away from.
    Mr. Shays. I hear what you're saying, and I am not 
disagreeing. But what I'm saying is, they were the last in the 
food chain. I know that for a fact. And yet they're being asked 
to do a harder job, in my judgment, than the active force. I 
just would love you----
    General Blum. But for the record, sir, they are not last in 
the food chain. The 81st that has just gone to Iraq were first 
in the food chain. They got body armor before the active army. 
They got up-armored Humvees before the active Army.
    Mr. Shays. General, I'm going to say this as clearly as I 
can. I know this for a fact, when the hand-me-downs of aircraft 
and so on, they usually get some equipment that has already 
been used by the active forces. And that's a fact you and I 
know is true. General?
    General Love. Congressman, thank you. And as a preface, if 
I may, I will say that I was invited here today to speak on 
behalf of NORTHCOM. So if I may, I will answer your questions 
from personal experience, rather than in my role as the 
Assistant Commander of NORTHCOM. I think a review of my 
personal experience in the Air National Guard would indicate 
that the Air National Guard was asked to become an operational 
Reserve immediately following the first Gulf war. It had the 
period of the 1990's in which to bring itself up to the status 
of a participant, an equal participant in the air expeditionary 
forces.
    Yes, there were some equipment shortfalls, and yes, there 
may not have been the most modern, current equipment within the 
Air National Guard. But whether it was in the transportation 
business or in the fighter business, I'm proud to say that the 
Air National Guard carried its role and the Congress supported 
it when it asked for support to assist us in doing so.
    Mr. Shays. Thank you, Mr. Chairman.
    The men and women in the National Guard and Reserves are 
doing an awesome job. And I thank them for that.
    Chairman Tom Davis. Thank you. I've just got a couple of 
questions. General Blum, nobody's really asked today what we 
can do here in Congress to help the Guard carry out its 
mission. Is there any legislation or authorization that would 
be helpful along the vision that you have given us?
    General Blum. Based on most of the comment that has gone on 
here today, and Governor Pataki's earlier comment, unambiguous, 
clear legislative authority for the operational use of Title 32 
I think would be highly helpful for both the Department of 
Defense and the National Guard, so that we can know how we're 
going to respond to the Governors and the President in the 
myriad conditions that we're asked to respond.
    Right now, the ambiguity of the current code leaves it much 
too subject to interpretation, and actually, that code was 
designated again, for strategic force, not an operational force 
to be combating the global war on terrorism. So sir, I would 
say that would be first and foremost.
    Chairman Tom Davis. Thank you. General Love, let me just 
ask, I know NORTHCOM just conducted two very large scale annual 
training exercises called the Unified Defense that includes 
scenarios for protecting the homeland under simultaneous 
attacks. Can you tell us a little about the exercise, who 
participated and any lessons we learned?
    General Love. You're right, sir, Unified Defense, the 
exercises perhaps you're referring to were Determined Promise 
03, which occurred last August, and Unified Defense 04. And 
yes, sir, you're correct as well in saying that we engaged our 
forces in multiple places, responding as Secretary McHale 
pointed out earlier today, that we anticipated attack on this 
country by our enemies in a number of places at the same time.
    The lessons we learned from that were very good and 
sometimes very painful. That is that we did not have command 
and control where we perhaps needed. We didn't have the 
exercising we perhaps needed. But that is examined in the light 
of the fact that we wouldn't exercise if we didn't want to warn 
those lessons. And NORTHCOM is just barely, not quite 18 months 
old. Is that responsive, sir?
    Chairman Tom Davis. That's fine. Let me must thank this 
panel. There's always a tendency in the military and politics 
and everything else to fight the last war. And nobody does the 
last war better than we do. If you look at a conventional war, 
the war we did in Iraq, nobody does it better. You drive 
through Baghdad and there are heaps of rubble that were 
military installations, defense installations, and next to it 
residential buildings that weren't touched.
    But it's the aftermath that obviously we weren't prepared 
for. No one envisioned this. General Blum, I'm glad to see your 
vision now is looking at these kinds of things. We need to 
continue looking outside the box, because it may be a little 
more complicated in our next era of operations. Who knows.
    We just need to continue to have these conversations with 
us and the other appropriate committees. This hearing has been 
very helpful to all of us. We appreciate our taking the time. 
Paul, it's great to have you back here on the other side, have 
a lot of confidence in you and a lot of respect from your days 
in the House. Anything anybody else wants to add?
    Mr. Hall. Mr. Chairman, might I have about 30 seconds?
    Chairman Tom Davis. Yes, indeed.
    Mr. Hall. The question you asked General Blum about things 
that you might do, we have a number of rules which don't cost a 
lot of money but are rules for our Guardsmen and reservists 
that go back to the cold war which does not contribute to a 
continuous service. And we passed those over, we would 
appreciate your looking at them, such as volunteer auxiliaries.
    The single biggest source of manpower that we have not 
tapped are retirees. And I have a vast amount of retirees call 
and ask, can I serve. They are around our bases. We would like 
authority to form voluntary auxiliaries to use the retired 
population in the country which can relieve the stress on our 
Guard and Reserve. Many of our rules, which if you serve more 
than 179 days, we count you on Active Duty list for promotion, 
the strength accounting.
    So there are a number of those rules which I think we need 
to take care of which are not costly but will make service 
easier for our Guardsmen and reservists. Those are submitted 
and we would ask, if they make sense, that the committee look 
at them and support them.
    Chairman Tom Davis. Thank you. And we also will submit 
those to Duncan Hunter and his committee. We'll talk to them as 
well.
    Mr. Hall. We think it will help our young men and women and 
not cost a lot of money.
    Mr. McHale. Mr. Chairman, if I may, I would hope it was 
clear in my opening statement and perhaps in some of the 
answers to the questions raised by the Members that during the 
past 2 years since September 11th, we have very substantially 
reviewed and strengthened our homeland defense capabilities. 
That's not rhetoric, those are deliverable, operational 
capabilities on a daily basis. We fly air combat air patrols 
that were not being flown prior to September 11th. We have Army 
and Marine units on alert for deployment within our own country 
to defend against a ground attack.
    And most importantly, we have and are developing at a 
higher level the ability to respond to multiple, near 
simultaneous WMD attacks within our own country. We have not 
had that capability historically. We have it now and it's 
getting better every day.
    Chairman Tom Davis. Thank you very much. And let me 
associate myself with Mr. Lantos' remarks at the beginning when 
he said we've got to appreciate and respect the job you're 
doing, and of course the men and women in uniform that you 
represent.
    Thank you very much. We'll take a 2-minute recess as we 
move to our next panel.
    [Recess.]
    Mr. Shays [assuming Chair]. We would like to welcome our 
third panel, Janet A. St. Laurent, Director of Defense 
Capabilities and Management, U.S. General Accounting Office; 
Lieutenant General Wayne D. Marty, State Adjutant General of 
Texas; Major General Timothy Lowenberg, State Adjutant General 
of Washington; Major General Bruce Tuxill, State Adjutant 
General of Maryland.
    As you know, gentlemen and lady, it is the policy of our 
committee to swear in all our witnesses, and I would 
respectfully request you stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. Thank you very much. Note for the record that 
all our witnesses responded in the affirmative, and I 
appreciate others standing up in case we need to seek their 
testimony.
    We will go in the order I called you. We do a 5 minute 
clock, we roll it over, but we'd like you to stay as close to 
the 5-minutes as you can. You also know that your testimony 
will be part of the record, and also feel free to respond to 
any question that was asked in the previous two panels. Thank 
you for being here, thank you for your testimony and thank you 
for your service to our country and to your State.
    Ms. St. Laurent.

     STATEMENTS OF JANET A. ST. LAURENT, DIRECTOR, DEFENSE 
 CAPABILITIES AND MANAGEMENT, U.S. GENERAL ACCOUNTING OFFICE; 
 LIEUTENANT GENERAL WAYNE D. MARTY, ADJUTANT GENERAL, STATE OF 
 TEXAS; MAJOR GENERAL TIMOTHY J. LOWENBERG, ADJUTANT GENERAL, 
    STATE OF WASHINGTON; AND MAJOR GENERAL BRUCE F. TUXILL, 
              ADJUTANT GENERAL, STATE OF MARYLAND

    Ms. St. Laurent. Mr. Chairman and members of the committee, 
I am pleased to be here today to discuss GAO's observations on 
challenges facing the National Guard. For the sake of time, I 
would like to quickly summarize our work in three areas. First, 
how and to what extent Guard forces have been used since 
September 11th; second, how the use of the Guard has affected 
readiness for future operations; and third, challenges that 
DOD, Congress and the States face in preparing the National 
Guard for the future.
    First, let me turn to the use of the Guard. Since September 
11th, over 51 percent of Army Guard personnel and 31 percent of 
Air Guard personnel have been activated or alerted for a wide 
range of Federal missions at home and abroad. The chart on the 
board to your left, and I believe you also have copies of 
these, shows that the Army Guard has experienced the largest 
demand for forces.
    As of last month, the Army Guard had almost 95,000 
soldiers, more than 25 percent of its forces, mobilized or on 
alert to support operations in Iraq, Afghanistan and at home. 
Moreover, DOD has recently placed thousands of additional 
soldiers on alert.
    The Air Guard's usage has also been significant, but has 
declined in recent months. Currently, the Air Guard has about 
7,500 personnel who are deployed overseas or conducting 
homeland security missions at home, such as flying combat air 
patrols over portions of the Nation.
    Second, I would like to turn to readiness. Specifically, 
the readiness of Guard non-deployed units has declined steadily 
since September 11th. The decline in readiness is a more 
serious problem for the Army Guard, because it has not been 
funded to quickly deploy the number and types of units that 
have been needed within the past few years.
    In the past, much of the Army Guard's role was to be a 
strategic Reserve force that would be maintained at lower 
readiness levels and given additional resources and time to 
train if needed in the event of war. Although real world 
demands on the Army Guard have changed, DOD's resourcing 
strategy has not. For example, the Army Guard's eight divisions 
are authorized 65 percent of the personnel they need, while the 
Guard's 150 enhanced brigades, which are intended to be 
maintained at a higher readiness level, are authorized about 85 
percent of personnel.
    However, theater commanders require that units deploy with 
100 percent of required personnel, and that has been the case 
for Iraq. As a result, the Army Guard has had to transfer 
significant numbers of personnel and equipment from non-
deploying to deploying units. For example, the Army Guard has 
had to initiate transfers of 71,000 soldiers since September 
11th. To get two enhanced brigades ready to deploy to Iraq 
earlier this year, the Army Guard had to transfer about 2,000 
soldiers, about a quarter of the total required for these 
brigades, worsening shortfalls elsewhere.
    The readiness problem also affects equipment. To mobilize 
forces to Iraq, the Guard transferred about 22,000 pieces of 
equipment, such as night vision goggles, machine guns, trucks, 
and radios. This is an important point, because it further 
degrades the readiness of some units that may be needed in the 
near future. Moreover, some of this equipment is the same type 
of equipment that may be needed to deter a response to 
potential terrorist threats at home.
    In addition, the Army and Air Guard's readiness for 
homeland security missions is uncertain because DOD has not 
fully established requirements or readiness measures for these 
missions. Officials in one State we visited were somewhat 
concerned that ongoing Guard deployment may lead to situations 
in which Guard units are not available when needed at home.
    I would like to refer you to two charts that provide a 
snapshot of Army and Air National Guard personnel deployed in 
March 2004. The first chart, which refers to the Army National 
Guard, shows that 15 States had 40 percent or more of Army 
Guard soldiers alerted or activated in March and they're 
unavailable to the Governor. A couple of States had over 60 
percent deployed.
    The next chart shows that the Air Guard was less affected 
by high deployment. Only a few States have more than 20 percent 
of their Air Guard personnel deployed during March.
    Finally, Mr. Chairman, we see three major challenges that 
DOD, Congress and the States will need to collectively address. 
First, DOD's current practice of transferring large numbers of 
personnel and equipment from non-deploying to deploying Army 
Guard units, in other words, robbing Peter to pay Paul, will 
not be sustainable if the high pace of operations continues. 
Although DOD is aware of this issue, it has not developed any 
comprehensive formula, plan or identified specific funds to 
address it.
    Second, although the Army National Guard plans to 
restructure its forces for the long term and would like to meet 
a greater percentage of its full time manning requirements in 
the future, DOD has not yet fully budgeted for these 
initiatives or developed detailed implementation plans.
    Finally, the Guard has taken some steps to identify the 
types of capabilities that each State should have for homeland 
security, such as aviation, transportation, engineers, security 
units, and to develop a rotation scheme that will try to keep 
50 percent of the forces in each State at home. However, 
details have not yet been developed in coordination with the 
States that will be required to implement the plan.
    In conclusion, Mr. Chairman, declining readiness, combined 
with the continuing high pace of operations, suggests that a 
comprehensive reassessment of the Army Guard structure and 
resourcing assumptions is needed. Moreover, once homeland 
security requirements are better defined, additional analysis 
will be needed to assess the impacts on both the Army and Air 
National Guard.
    This completes my statement. Thank you, Mr. Chairman.
    [The prepared statement of Ms. St. Laurent follows:]

    [GRAPHIC] [TIFF OMITTED] T5597.069
    
    [GRAPHIC] [TIFF OMITTED] T5597.070
    
    [GRAPHIC] [TIFF OMITTED] T5597.071
    
    [GRAPHIC] [TIFF OMITTED] T5597.072
    
    [GRAPHIC] [TIFF OMITTED] T5597.073
    
    [GRAPHIC] [TIFF OMITTED] T5597.074
    
    [GRAPHIC] [TIFF OMITTED] T5597.075
    
    [GRAPHIC] [TIFF OMITTED] T5597.076
    
    [GRAPHIC] [TIFF OMITTED] T5597.077
    
    [GRAPHIC] [TIFF OMITTED] T5597.078
    
    [GRAPHIC] [TIFF OMITTED] T5597.079
    
    [GRAPHIC] [TIFF OMITTED] T5597.080
    
    [GRAPHIC] [TIFF OMITTED] T5597.081
    
    [GRAPHIC] [TIFF OMITTED] T5597.082
    
    [GRAPHIC] [TIFF OMITTED] T5597.083
    
    [GRAPHIC] [TIFF OMITTED] T5597.084
    
    [GRAPHIC] [TIFF OMITTED] T5597.085
    
    [GRAPHIC] [TIFF OMITTED] T5597.086
    
    [GRAPHIC] [TIFF OMITTED] T5597.087
    
    [GRAPHIC] [TIFF OMITTED] T5597.088
    
    [GRAPHIC] [TIFF OMITTED] T5597.089
    
    [GRAPHIC] [TIFF OMITTED] T5597.090
    
    [GRAPHIC] [TIFF OMITTED] T5597.091
    
    [GRAPHIC] [TIFF OMITTED] T5597.092
    
    [GRAPHIC] [TIFF OMITTED] T5597.093
    
    [GRAPHIC] [TIFF OMITTED] T5597.094
    
    [GRAPHIC] [TIFF OMITTED] T5597.095
    
    [GRAPHIC] [TIFF OMITTED] T5597.096
    
    [GRAPHIC] [TIFF OMITTED] T5597.097
    
    [GRAPHIC] [TIFF OMITTED] T5597.098
    
    [GRAPHIC] [TIFF OMITTED] T5597.099
    
    [GRAPHIC] [TIFF OMITTED] T5597.100
    
    Mr. Shays. Thank you very much. We appreciate your 
testimony. General Marty, welcome.
    General Marty. Good afternoon, Mr. Chairman and members of 
the committee. Let me just say that it's an honor for this 
Texas soldier to come before this committee to testify. Thank 
you very much.
    Mr. Shays. General, you need to know it is an honor to have 
you come before us. Don't even wonder.
    General Marty. I'm pleased to have this opportunity to 
discuss the transformation of the Texas military forces. The 
Texas military forces include the Adjutant General's 
Department, the Texas National Guard, both the Army and the 
Air, and the Texas State Guard. We are a diverse team of 
approximately 21,000 Federal and State personnel in 106 
installations in or near 86 cities and towns across Texas.
    Since September 11th, the Texas military forces have 
responded to homeland security respondents and other public 
emergencies in a variety of ways that demonstrate the 
versatility of the force. These include the fighter escort of 
Air Force One immediately following the September 11 attacks, 
the security of 26 airports statewide, assisting the FBI in 
review of airline manifests, augmenting Immigration and 
Naturalization Service, the Border Patrol, the Customs Service 
along the Mexican Border and Gulf Coast line, conducting combat 
air patrols over Houston, the Gulf Coast, New York City and 
Washington, frequent interception missions against unidentified 
aircraft entering U.S. air space and security of critical 
national assets at at least 20 locations across the United 
States.
    Additional activities include augmenting search, security 
and rescue forces at the World Trade Center and the 2002 Winter 
Olympics in Utah, both air and ground support of local, State 
and Federal law enforcement agencies along the Mexican border 
and throughout the State, assisting with the joint recovery of 
the space shuttle Columbia, medical and dental support to the 
needy in south Texas border region, and emergency response to 
hurricanes, tropical storms, tornadoes, snow storms, floods and 
wildfires.
    Our ability to respond like this is based upon close 
working relationships with State homeland security and 
emergency management officials, and clear guidance from them on 
their requirements. The shuttle recovery operation in 
particular highlighted the value of Title 32 mobilizations, 
which provided Federal funds but allowed the Governor and me to 
continue to use the established system of command and control 
and the habitual relationships with the State emergency 
agencies and responders.
    In addition, since September 11th, Texas military forces 
have developed on land and deployed on land, at sea and in the 
air in support of the global war on terrorism at 195 locations 
within the United States, on Coalition Naval vessels in the 
Mediterranean and in 38 countries. I must tell you that we 
could not have done this without the support of the U.S. 
Congress and the American people. For that, we are very 
grateful.
    Our ability to meet the demands of this expanding roles is 
also greatly facilitated by the drive for the joint 
transformation by the Department of Defense and the National 
Guard Bureau. In Texas, we are pursuing transformation along 
five closely related lines. We have transformed the various 
headquarters into a single, joint State headquarters. We are 
transforming the Texas Army National Guard into agile, 
versatile, modular, independent units of action.
    We are transforming the Air National Guard into a more 
relevant force, anchored in precision strike, fighter training 
and worldwide tactical airlift. We are transforming the Texas 
State Guard, a voluntary auxiliary for Texas National Guard, 
into a joint forces specialist to augment the medical 
infrastructure in Texas in public health emergencies, including 
terrorism.
    We continue to serve both the global war on terrorism and 
homeland missions. As should be apparent, the preparation for 
one role has enhanced our preparation for the others. Because 
both missions require agility and the ability by diverse 
agencies and services to work closely together and effectively.
    You have asked how you could help. I have some suggestions. 
Continue to support the Department of Defense and U.S. 
Government's drive for joint transformation. To assist the 
Department of Defense in adjusting incentive programs, 
retention incentives can be redirected for military and 
military occupational specialists bonuses to post-mobilization 
retention bonuses. To assist the Department of Defense in 
assuring that our soldiers and airmen have the equipment they 
need, including ammunition for training, aircraft upgrades and 
engineer equipment. Assist the Department of Defense in making 
various funding streams which began with Congress, less 
stovepiped and more flexible and more joint.
    I'd like to thank you very much for having me here, and I 
appreciate your efforts on behalf of the National Guard 
soldiers and airmen, their families and employers, as well as 
the soldiers, the sailors, the airmen, Marines, members of the 
Coast Guard personnel who serve this great Nation. These are 
great young men and women and I am extremely proud of them. 
Thank you very much.
    [The prepared statement of General Marty follows:]

    [GRAPHIC] [TIFF OMITTED] T5597.101
    
    [GRAPHIC] [TIFF OMITTED] T5597.102
    
    [GRAPHIC] [TIFF OMITTED] T5597.103
    
    [GRAPHIC] [TIFF OMITTED] T5597.104
    
    [GRAPHIC] [TIFF OMITTED] T5597.105
    
    [GRAPHIC] [TIFF OMITTED] T5597.106
    
    [GRAPHIC] [TIFF OMITTED] T5597.107
    
    [GRAPHIC] [TIFF OMITTED] T5597.108
    
    [GRAPHIC] [TIFF OMITTED] T5597.109
    
    [GRAPHIC] [TIFF OMITTED] T5597.110
    
    [GRAPHIC] [TIFF OMITTED] T5597.111
    
    [GRAPHIC] [TIFF OMITTED] T5597.112
    
    [GRAPHIC] [TIFF OMITTED] T5597.113
    
    [GRAPHIC] [TIFF OMITTED] T5597.114
    
    [GRAPHIC] [TIFF OMITTED] T5597.115
    
    [GRAPHIC] [TIFF OMITTED] T5597.116
    
    Mr. Shays. Thank you very much. We are extremely grateful 
for your work and proud of the men and women who you work with, 
General. Let me introduce and recognize General Lowenberg, and 
just say, General, my staff has wanted me to just know, so I 
want to put it on the record that your statement, which is 73 
plus pages, my staff, excuse me, the chairman's staff's view is 
that it is almost a bible of what should be done, and are very 
grateful for your very significant effort to try to accommodate 
this committee and its work. We're grateful as well that you 
have summarized your statement. [Laughter.]
    I want very much to put on the record that your entire 
statement is going to be very helpful to this committee and we 
may not plagiarize, but we'll come close.
    General Lowenberg. I thank the Chair for those kind words. 
Members of the committee, it's an honor to be with you today in 
my capacity as the Adjutant General for the State of Washington 
and as chair of homeland security for the Adjutant General's 
Association of the United States.
    Like the Adjutants General of all States, I have military 
and civilian responsibilities that are unique throughout the 
military services and, for that matter, unique throughout the 
remainder of State and Federal Government. In addition to my 
joint Army and Air National Guard command responsibilities, I 
am the State's senior emergency management official. I'm 
charged with administering the comprehensive emergency 
management plan for the State of Washington. I oversee our 
Statewide enhanced 911 telecommunications system and serve on 
the State interoperability executive committee.
    I serve as the State's homeland security advisor, in that 
respect for every week since the attack of September 11, 2001, 
I have chaired a weekly meeting of the Governor's chief of 
staff, senior cabinet officials and policy advisors and the 
State attorney general. As the State cabinet level official for 
homeland security, I deal directly with my Federal counterpart, 
Secretary Tom Ridge. I also serve as the Homeland Security 
Grant Administrator for our State, and therefore lease with 
other States, interface with senior officials in other Federal 
agencies such as the Department of Defense, Health and Human 
Services, Energy and others.
    I mention these interwoven civil and military 
responsibilities, because they are not unique to me. Portions 
of my own portfolio are reflected in the central roles of 
General Tuxill and others, and other National Guard adjutants 
general throughout all the States and territories. We are a 
fusion point that assures a unity of effort within our States, 
between the States and the Federal Government and perhaps most 
significantly, between the Department of Defense and other 
Federal agencies where the risks and vulnerabilities are the 
greatest at the State and local level.
    Just as our responsibilities are unique, so too the 
military forces that we command have a unique legal status. 
It's that unique legal status that is our biggest strength and 
offers extraordinary flexibility to State and Federal 
authorities on how our forces can be used to enhance homeland 
security. That strength should be leveraged by using the 
National Guard in Title 32 status to the maximum extent 
possible for all domestic operations, not just for training as 
is currently and unambiguously authorized in 32 U.S. 502, but 
also for the full scope of domestic operations. The practical, 
fiscal and legal advantages of using the Guard in Title 32 
status are well documented in the Defense Science Board study 
which will soon be released, and a resolution adopted by the 
National Governors Association last year and in my formal 
testimony.
    This country needs bold, visionary leaders at the national 
level to revise Title 32 for the 21st century. To remove 
bureaucratic obstacles, I encourage the Congress to take strong 
action to make it unambiguously clear that Title 32 may be used 
for domestic operational missions in addition to training. If 
properly authorized and resourced with civil authorities in 
addition to preparing for our overseas combat missions, the 
Guard can make a wealth of experience and expertise available 
to State and local authorities for planning, training and 
exercising for synchronized and complex responses.
    Our experience in intelligence fusion and analysis can and 
should be made available to State and local authorities. This 
integration would contribute greatly to the operation picture 
needed by NORTHCOM. As has been previously noted, the Guard has 
provided counter-drug support to State, Federal and local law 
enforcement agencies for more than a decade and a half. The 
nexus between drug trafficking and terrorism is clear. Congress 
should expand the existing National Guard counter-drug program 
to enlarge the focus that authorizes and funds a Governor's 
narco-terrorism plan in each State. And just as we do with the 
current counter-drug program, that narco-terrorism plan should 
be fully vetted and approved by the Department of Defense.
    Taking a successful program like the current counter-drug 
program and updating it to combat the 21st century narco-
terrorism threats confronting our Nation will be 
transformational indeed. To effectively rebalance the force in 
consort with everything General Blum and the other speakers 
have outlined for you, the Army National Guard must be 
resourced at a similar level of readiness that exceeds what it 
is now--in contrast to the Army, which is fully resourced, and 
the Air National Guard, which is at 100 percent of its 
requirement.
    We can build an Army National Guard force with an equal 
state of readiness, but only if the Department of Defense and 
Army choose to fund the Army National Guard to a similar level 
as the Air National Guard. These are policy choices with 
operational and national security consequences. DOD has a 
number of high demand, low density mission areas that are 
currently in short supply, and it should be recognized that 
some capabilities are also desperately needed by the States for 
domestic homeland security. These mission areas should be 
expanded and resourced as quickly as possible.
    Secretary McHale's presence here underscores how 
dramatically the Department of Defense itself has reshaped and 
reformed to meet the challenges of the global war on terrorism. 
The purpose and charter of the National Guard needs to be 
similarly updated to give the Chief of the National Guard 
Bureau clear statutory authority to deal directly with 
Secretary McHale and with NORTHCOM, and with all the other 
players in this newly reorganized Department of Defense 
Homeland Security architecture.
    Mr. Chairman and members of the committee, I look forward 
to answering your questions. Thank you for your kind attention.
    [The prepared statement of General Lowenberg follows:]

    [GRAPHIC] [TIFF OMITTED] T5597.117
    
    [GRAPHIC] [TIFF OMITTED] T5597.118
    
    [GRAPHIC] [TIFF OMITTED] T5597.119
    
    [GRAPHIC] [TIFF OMITTED] T5597.120
    
    [GRAPHIC] [TIFF OMITTED] T5597.121
    
    [GRAPHIC] [TIFF OMITTED] T5597.122
    
    [GRAPHIC] [TIFF OMITTED] T5597.123
    
    [GRAPHIC] [TIFF OMITTED] T5597.124
    
    [GRAPHIC] [TIFF OMITTED] T5597.125
    
    [GRAPHIC] [TIFF OMITTED] T5597.126
    
    [GRAPHIC] [TIFF OMITTED] T5597.127
    
    [GRAPHIC] [TIFF OMITTED] T5597.128
    
    [GRAPHIC] [TIFF OMITTED] T5597.129
    
    [GRAPHIC] [TIFF OMITTED] T5597.130
    
    [GRAPHIC] [TIFF OMITTED] T5597.131
    
    [GRAPHIC] [TIFF OMITTED] T5597.132
    
    [GRAPHIC] [TIFF OMITTED] T5597.133
    
    [GRAPHIC] [TIFF OMITTED] T5597.134
    
    [GRAPHIC] [TIFF OMITTED] T5597.135
    
    [GRAPHIC] [TIFF OMITTED] T5597.136
    
    [GRAPHIC] [TIFF OMITTED] T5597.137
    
    [GRAPHIC] [TIFF OMITTED] T5597.138
    
    [GRAPHIC] [TIFF OMITTED] T5597.139
    
    [GRAPHIC] [TIFF OMITTED] T5597.140
    
    [GRAPHIC] [TIFF OMITTED] T5597.141
    
    [GRAPHIC] [TIFF OMITTED] T5597.142
    
    [GRAPHIC] [TIFF OMITTED] T5597.143
    
    [GRAPHIC] [TIFF OMITTED] T5597.144
    
    [GRAPHIC] [TIFF OMITTED] T5597.145
    
    [GRAPHIC] [TIFF OMITTED] T5597.146
    
    [GRAPHIC] [TIFF OMITTED] T5597.147
    
    [GRAPHIC] [TIFF OMITTED] T5597.148
    
    [GRAPHIC] [TIFF OMITTED] T5597.149
    
    [GRAPHIC] [TIFF OMITTED] T5597.150
    
    [GRAPHIC] [TIFF OMITTED] T5597.151
    
    [GRAPHIC] [TIFF OMITTED] T5597.152
    
    [GRAPHIC] [TIFF OMITTED] T5597.153
    
    [GRAPHIC] [TIFF OMITTED] T5597.154
    
    [GRAPHIC] [TIFF OMITTED] T5597.155
    
    [GRAPHIC] [TIFF OMITTED] T5597.156
    
    [GRAPHIC] [TIFF OMITTED] T5597.157
    
    [GRAPHIC] [TIFF OMITTED] T5597.158
    
    [GRAPHIC] [TIFF OMITTED] T5597.159
    
    [GRAPHIC] [TIFF OMITTED] T5597.160
    
    [GRAPHIC] [TIFF OMITTED] T5597.161
    
    [GRAPHIC] [TIFF OMITTED] T5597.162
    
    [GRAPHIC] [TIFF OMITTED] T5597.163
    
    [GRAPHIC] [TIFF OMITTED] T5597.164
    
    [GRAPHIC] [TIFF OMITTED] T5597.165
    
    [GRAPHIC] [TIFF OMITTED] T5597.166
    
    [GRAPHIC] [TIFF OMITTED] T5597.167
    
    [GRAPHIC] [TIFF OMITTED] T5597.168
    
    [GRAPHIC] [TIFF OMITTED] T5597.169
    
    [GRAPHIC] [TIFF OMITTED] T5597.170
    
    [GRAPHIC] [TIFF OMITTED] T5597.171
    
    [GRAPHIC] [TIFF OMITTED] T5597.172
    
    [GRAPHIC] [TIFF OMITTED] T5597.173
    
    [GRAPHIC] [TIFF OMITTED] T5597.174
    
    [GRAPHIC] [TIFF OMITTED] T5597.175
    
    [GRAPHIC] [TIFF OMITTED] T5597.176
    
    [GRAPHIC] [TIFF OMITTED] T5597.177
    
    [GRAPHIC] [TIFF OMITTED] T5597.178
    
    [GRAPHIC] [TIFF OMITTED] T5597.179
    
    [GRAPHIC] [TIFF OMITTED] T5597.180
    
    [GRAPHIC] [TIFF OMITTED] T5597.181
    
    [GRAPHIC] [TIFF OMITTED] T5597.182
    
    [GRAPHIC] [TIFF OMITTED] T5597.183
    
    [GRAPHIC] [TIFF OMITTED] T5597.184
    
    [GRAPHIC] [TIFF OMITTED] T5597.185
    
    [GRAPHIC] [TIFF OMITTED] T5597.186
    
    [GRAPHIC] [TIFF OMITTED] T5597.187
    
    [GRAPHIC] [TIFF OMITTED] T5597.188
    
    [GRAPHIC] [TIFF OMITTED] T5597.189
    
    [GRAPHIC] [TIFF OMITTED] T5597.190
    
    [GRAPHIC] [TIFF OMITTED] T5597.191
    
    [GRAPHIC] [TIFF OMITTED] T5597.192
    
    [GRAPHIC] [TIFF OMITTED] T5597.193
    
    [GRAPHIC] [TIFF OMITTED] T5597.194
    
    Mr. Shays. Thank you very much, General, and General 
Tuxill, thank you so much. You have the floor.
    General Tuxill. Good afternoon, Mr. Chairman and 
distinguished members of the committee.
    I'm here representing Maryland's Governor, Robert L. 
Ehrlich, Jr. Mainly, he asked me to come to discuss our 
readiness and the National Guard for our some 8,300 men and 
women that comprise the National Guard in Maryland. In keeping 
with the 367 year tradition, Maryland citizen soldiers and 
airmen continue to respond today. We have over 1,100 soldiers 
and airmen deployed in support of either Operation Noble Eagle, 
Operation Enduring Freedom or Operation Iraqi Freedom. Since 
September 11, we've deployed over 4,100 citizen soldiers and 
airmen in response to the global war on terror.
    Our soldiers and airmen fully understand that our Nation is 
at war with terror, and likewise expect to serve. These young 
men and women have volunteered to defend this Nation against 
all enemies, foreign and domestic. We owe it to them to ensure 
they enjoy capable leadership and are provided nothing but the 
best training and equipment. To do this, the National Guard 
must be organized, trained and equipped at the same levels as 
our Active Duty counterparts.
    But the reality is, as a result of our cold war design to 
be used as a force in Reserve, many units are currently funded 
at C3 level, thus impacting training and equipment. As a 
workaround to provide the combatant commander with National 
Guard units that are fully equipped to support the warfight, 
it's become necessary to do what we call a cross-leveling. 
Cross-leveling is gaining personnel and equipment from other 
units within the State and across State lines. In essence, we 
are breaking units to provide the appropriate equipment and 
personnel to the deploying unit. This becomes a vicious circle, 
in that units that gave in many instances do not have the 
appropriate equipment with which to train. Thus, the losing 
unit is no longer to even keep a level of C3.
    Another one of my major concerns continues to be the length 
and predictability of deployments and how that personnel 
operational tempo impacts not only the quality of life but also 
the very retention of our soldiers and airmen. Currently, the 
U.S. Air Force employs an air expeditionary force which 
provides predictability for their personnel and their families. 
If we are to count on the continued support of employers and 
families in a war that will be conducted over many years, we 
need to have and provide predictability.
    I am very supportive of the National Guard Bureau's 
rotational concept that will give Governors 50 percent of the 
forces available for the State mission and homeland defense, 
approximately 25 percent that are engaged in extensive training 
to be deployed and 25 percent of the force employed in an 
operational capability. One more concern that I have is the 
proper force mix of soldiers and airmen with our Active Duty 
counterparts. By that I mean, the low density, high demand 
missions must be addressed.
    The current efforts underway between the National Guard 
Bureau and the services are steps in the right direction to 
correct this imbalance. While I understand the Secretary of 
Defense's need for a rapid reactive force in the Active Duty 
military, we must be able to spread all missions to the active 
Guard and Reserve. We cannot be the sole owner of a mission in 
either the active Guard or Reserve. To do so will continue our 
history of the Guard and Reserve maintaining legacy missions 
that will never be mobilized. If we field an operational 
mission within our active component, we should pull the Guard 
and Reserve with that fielding wherever practical.
    I did have a little blurb on Title 32. I will defer to 
General Lowenberg, he has a much better description of that, so 
I will pass that. But I did want to bring out one more thing 
that I think is very important. The unique infrastructure and 
population of the State of Maryland and its portion of and 
proximity to the National Capital region presents a very 
complex set of coordination boundaries for emergency response. 
We have drafted a memorandum of agreement between the 
commanding general, D.C. National Guard, the Adjutant General 
of Virginia and myself to ensure mutual aid, support and 
cooperation between and among the parties in response to a 
critical incident or event occurring within the National 
Capital region. This clarifies military command and control of 
National Guard forces pursuant to the Emergency Management 
Assistance Compact.
    The Joint Task Force, National Capital Region Plan, has 
been approved by the commander of NORTHCOM and the DOD. The 
Guard is not included in that current document. Subsequent 
meetings with NORTHCOM, Military District of Washington and the 
National Guard Bureau may alter that plan. But the planning 
that the Adjutants General and the commanding general of D.C. 
are doing right now will not be affected. We see that we are 
looking at the Guard doing an all-hazards approach to emergency 
management within the National Capital region.
    Finally, in addition to my duties with the Maryland Guard, 
I have Maryland emergency management under my purview. One of 
the points I'd like to make, we had two major incidents, a snow 
storm and Hurricane Isabel last year. Two points out of this. 
The first is that the Guard functioned wonderfully in the State 
mission. The second is, we continued with Operation Noble 
Eagle, Operation Enduring Freedom and Operation Iraqi Freedom. 
And we did that without missing a beat.
    Once again, thank you for the opportunity to be here, and I 
look forward to your questions.
    [The prepared statement of General Tuxill follows:]

    [GRAPHIC] [TIFF OMITTED] T5597.196
    
    [GRAPHIC] [TIFF OMITTED] T5597.197
    
    [GRAPHIC] [TIFF OMITTED] T5597.198
    
    [GRAPHIC] [TIFF OMITTED] T5597.199
    
    [GRAPHIC] [TIFF OMITTED] T5597.200
    
    [GRAPHIC] [TIFF OMITTED] T5597.201
    
    [GRAPHIC] [TIFF OMITTED] T5597.202
    
    [GRAPHIC] [TIFF OMITTED] T5597.203
    
    [GRAPHIC] [TIFF OMITTED] T5597.204
    
    [GRAPHIC] [TIFF OMITTED] T5597.205
    
    Mr. Shays. Thank you. Before recognizing Mr. Schrock, I 
just want to thank General Blum and General Love for staying 
and listening to your testimony.
    Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman.
    I have never known anybody who's written a Bible, but this 
document henceforth and forever more will be referred to as the 
Lowenberg bible. And I will read it. [Laughter.]
    Thank you, Ms. St. Laurent, for being here and thank you 
for bringing folks from the district I'm privileged to 
represent as well. Believe it or not, I read your entire 
testimony in two nights, but I read it, and there are some 
mighty good things in there, and I'm going to start the 
questioning with you if I could.
    What do you think are the greatest challenges that the 
National Guard is going to be facing in the next few years, and 
do you think the Army has an adequate plan to deal with the 
eroding readiness that we seem to be experiencing?
    Ms. St. Laurent. I would categorize the challenges as being 
some of a short term nature and some of a longer term nature. 
And we are concerned about the effect of these extensive 
transfers of personnel and equipment from one unit to another, 
to ready deploying units.
    General Blum mentioned that the Guard soldiers that are 
deploying to Iraq, after having spent time on mobilization 
stations, have gotten additional equipment, they are well 
trained when they leave there, but I think what we are 
concerned about is the longer term and cumulative effect of 
continuing rotations and having to support Iraq and Afghanistan 
potentially for a number of years, and over time, how this will 
translate into continuing eroding readiness.
    Again, we haven't seen the details as to how the Guard 
might be able to address that situation, haven't seen DOD 
providing the funds to address it. But the more we can identify 
units earlier and give them equipment and personnel that they 
may need earlier, they will be in a better situation and better 
trained once they get to mobilization stations.
    Mr. Schrock. I could be wrong, but I'm guessing never in 
our history have we had to use the Guard and Reserves to the 
extent we're using now, is that right? I think that's why all 
these things are getting spread out.
    Ms. St. Laurent. And another major change is that the focus 
of DOD planning has been on preparing for the combat phase of 
operations, and we're now seeing a lot of demands caused by 
having to do stability operations.
    Mr. Schrock. Yes. Adjutants General of 25 of the States and 
territories have been vested with dual military force provider 
civilian emergency management responsibilities. I understand 
that you, General Lowenberg, are also the homeland security 
advisor for the State of Washington. It seems you're all in 
unique positions to discuss how well the Federal Government, in 
other words, the Departments of Defense and Department of 
Homeland Security, are doing and helping with your State's 
homeland defense and homeland security initiatives.
    What help have you received from DOD and DHS in identifying 
those requirements?
    General Lowenberg. We are working with both of those 
agencies to identify the requirements as a collaborative effort 
between the State and Federal Government. It's an ongoing 
process. It's not prescriptive. The Department of Homeland 
Security and the Department of Defense are not presuming to 
come to any of the several States and territories and tell us 
what those requirements are. We're building this from the 
ground up.
    The national homeland security strategy was intentionally 
designed to be a collaborative effort and it's proving to be 
so. The relationship the States enjoy with Secretary Ridge and 
members of his Department I would say are very healthy. So 
right now, we just formally promulgated our State homeland 
security strategic plan, which has performance measurables, it 
has a balanced score card matrix. We're developing the action 
plans and business plans to affect enhancement of homeland 
security preparedness in our State as funds and other resources 
become available.
    We're also working with the Department of Defense, with 
General Eberhart and others at Northern Command, to identify 
the communications requirements needed to give NORTHCOM and the 
Department of Homeland Security a seamless communication sight 
picture, so they have a common operating picture, and the 
development of a joint communications coordination support 
environment is one of the major recommendations of the Summer 
Study of the Defense Science Board.
    I'm very happy to say that report, having been delivered to 
Secretary Rumsfeld and others in the Department of Defense, is 
undergoing implementation even as we speak, even though the 
formal volume two report of the DSB is still awaiting security 
review. So I'm very encouraged by the proactive stance of both 
these Federal agencies.
    Mr. Schrock. You said the relationship with Department of 
Homeland Security is healthy. What about DOD?
    General Lowenberg. I didn't mean to exclude DOD. Our 
relationship with Northern Command is very healthy as well. As 
Chair of Homeland Security for the Adjutants General 
Association, I served on Northern Command's general officer 
work group, as do some of my colleagues and we are full 
partners at the table in developing the NORTHCOM homeland 
security requirements.
    Mr. Schrock. Let me ask the three generals, what role do 
you believe DHS should play with the Guard's mission in 
homeland protection?
    General Lowenberg. I think the Department of Homeland 
Security should recognize that there are some State security 
programs, taking a holistic approach to it, that can best be 
aided by use of the National Guard. So this is going to require 
a very close policy coordination between Secretary McHale and 
Secretary Ridge to identify those areas that should be funded 
perhaps by the Department of Homeland Security, those programs 
that perhaps should entitle the National Guard to draw 
Department of Homeland Security Funds, as a State agency and in 
State Active Duty, and those programs that should be funded by 
the Department of Defense itself, utilizing the National Guard 
in Title 32 status, for a paramount Federal purpose, to develop 
programs in accordance with federally prescribed tasks, 
standards and conditions.
    So again, it's a major policy coordination and 
collaboration effort.
    Mr. Schrock. General Marty.
    General Marty. In Texas, we have an emergency manager and 
we also have the chairman of the homeland security. As the 
Adjutant General, I support both of those operations. Just 
recently, there's been a change of policy in Texas where I have 
now a member of the Texas National Guard, one of the members 
from our J3, our operations center, that is now the co-chairman 
of the homeland security committee. What this has done now is 
it's tied in homeland security closer to my operations and to 
my ability to respond quicker and more efficiently to the needs 
that we have in homeland security. So this is a move that we've 
just done.
    The support that we're getting now is, I think, much 
better, and I think the plans are in place that I think the 
support we can anticipate is coming. It's not completely there, 
but I think in the future we'll see more activity there.
    Mr. Schrock. General Tuxill.
    General Tuxill. One of the things that's, homeland security 
goes across the gambit, as you well know. In our recovery form 
Hurricane Isabel, I can tell you that the Federal Emergency, 
FEMA and that part of DHS just did a wonderful job of 
mitigating and helping us. For the first time, they did many 
things that we had not seen before, to include soil mitigation.
    So they are doing everything they can to help. I agree with 
General Lowenberg, there are still many things, many areas and 
many procedures, policies, that we do need to take a look at to 
see how they will affect and work with the National Guard, 
because he is correct when he says there are many missions that 
are what the Guard should be doing, and we should have the 
opportunity to have some funding from DHS.
    Mr. Schrock. Let me followup with that. Do you believe 
there's adequate coordination between DOD and DHS in 
preparation for the protection of homeland when it comes to the 
role of the National Guard?
    General Tuxill. I would hesitate to answer that for fear 
that I would--I've got some ideas but I think that's all they 
are, sir.
    Mr. Schrock. All right. Now I'm intrigued. [Laughter.]
    General Lowenberg.
    General Lowenberg. I think there's excellent coordination. 
As the two agencies mature, I think we have to be mindful that 
both the Department of Homeland Security and the Assistant 
Secretary of Defense for Homeland Defense are new creations 
chartered by Congress. They're getting their legs under them. 
And as those processes mature, the dialog becomes stronger, and 
more directly results in positive effects in the States.
    Mr. Schrock. General Marty.
    General Marty. In our States, the cooperation among the 
many agencies that we have to deal with when we have an agency 
has matured. And this has matured over years and years and 
years. What I see right now is you have two new agencies that 
have just been brought into being. And they're working 
extremely hard to reach this great amount of cooperation that's 
going to be needed.
    I see that growing every day with great anticipation. I 
think the maturity will be there, and the cooperation will be 
what we expect.
    Mr. Schrock. Would it be helpful if DOD and DHS could agree 
on a plan that would involve the Guard for homeland security 
and defense?
    General Lowenberg. I think it would help immensely if both 
of the Federal agencies with primary responsibility for 
homeland defense and security could develop a master concept of 
employment of the National Guard, and I'm quite confident as 
they do that the use of the National Guard in its broad 
spectrum of flexible response in Title 32 status, particularly 
if Congress unambiguously charters the National Guard to be 
used in Title 32 status, will be key to the success of that 
strategy.
    Mr. Schrock. I know my time is up, but let me say, I have a 
great appreciation for what the Guard does. The Guard unit, the 
Red Horse unit in the district I represent, a little over 2 
years, a plane crashed a large number were killed. I know the 
impact it had, and I think that was my first realization of 
really what the Guard did and how important they were. I'll 
never forget that. I may have been Active Duty for a career, 
but the Guard and Reserves, I have a son who's a Reserve and a 
chief of staff who is a Reserve, so I get reminded of that all 
the time.
    But I appreciate what everybody does and the role you all 
play. I'm glad you came here today, and I really appreciate Ms. 
St. Laurent's report that the GAO did, it was great. I think it 
really made us understand what some of the problems are, what 
some of the issues are. And we here on this side of the room 
need to get this addressed and need to get it addressed pretty 
quickly. But thank you very much.
    Mr. Shays. I thank the gentleman. And I would just say, as 
a parent, it's amazing what we learn from our children.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Sure. I'm going to get a little 
parochial here. I'm from the State of Maryland, I've worked 
with General Tuxill and General Blum. I think I can be 
parochial when we have two generals both on the panel, so I'm 
glad you're both here today.
    I know since my Maryland Second Congressional District has 
the Port of Baltimore, BWI Airport, a lot of those different 
areas that we're working with with respect to homeland 
security, I know a lot of what you're doing. My concern, 
though, is in the capital region. Maryland and Virginia have 
basically responsibility from a National Guard point of view 
for Washington, DC. Washington, DC, does not have any National 
Guard.
    General Tuxill. No, sir, they do.
    Mr. Ruppersberger. Oh, they do? OK. Well, then, let me ask 
you this question. Tell me what you feel needs to be done, how 
is the cooperation with NORTHCOM or whatever, but as it relates 
to National Guard, both in Maryland, Virginia, that makes your 
job more difficult than what you might recommend we do to make 
it easier for national security?
    General Tuxill. This is evolving, and it's a very positive 
evolution. We have gotten the three, the commanding general for 
the District of Washington and the two Adjutants General of 
Maryland and Virginia have sat down and forged out a letter of, 
or a memorandum of agreement on how we will actually work the 
EMAC and how we will come into each other's areas to make sure 
we take care of the National Capital region. That right now is, 
it's being sought, we're seeking level review through the Army, 
since the Army is the executive agent for the D.C. National 
Guard.
    That's where it's sitting right now. We hope once that's 
done, we will start going down this further. The next thing 
that I think we should do is the joint task force, we need to 
be part of the Military District of Washington. We've had one 
meeting with the Military District of Washington and that went 
very, very well. We will continue to have meetings so that we 
start talking about how the Guard can be employed, how the 
Guard can be used and how we will be probably helping the first 
responders, because when September 11 hit, the on-scene 
commander was from Virginia, he was a first responder in a fire 
company. There was no Federal involvement in that until well 
after.
    And the first people to guard the Pentagon was the 115th 
Military Police Battalion out of Parkville and Salisbury. They 
were there the very next day at 11 a.m., with 136 soldiers. So 
we see right now that the Adjutants General and the commanding 
general of the National Capital region will be pivotal to 
putting together and helping assemble a plan that will make 
sure that the Guard is tasked appropriately.
    Mr. Ruppersberger. Let me change the subject matter. When 
we talk about priorities and we talk about transformation, when 
we talk about all the issues we've talked about today, in the 
end it comes down to money, the resources that have to go in 
order to implement the programs you're talking about.
    Now, there's a debate on how much the States should pay or 
the Federals should pay. When it comes to homeland security and 
that role, I think it's important that the Federal Government 
stand behind the National Guard, especially with the States now 
having extremely difficult problems with respect to their 
budgets.
    The issue, and General Tuxill, you and I discussed this 
when we were talking about the issue between Title 32 and Title 
10, I think right now the issue that we should change, and I'm 
going to ask you, General Lowenberg, to address this, since 
General Tuxill said you were the expert, I'm not sure whether 
you are or not----
    General Lowenberg. He's setting me up, sir. [Laughter.]
    Mr. Ruppersberger. OK. It's the stars you have on.
    Right now, the other than a couple of issues such as drug 
activities or basically all that the Title 32 money can be used 
for, it's my understanding, is for training. If there are other 
areas, let me know. But what would you recommend that we do? I 
know the Governors would love to be able to federally, to have 
the orders that you're under the Federal mandate or whatever 
that order is, to be able to do some of the things that are 
being done in the State, which really could be considered 
homeland security.
    Let's talk about what you would recommend, what type of 
legislation or what type of mandate you would like to see, and 
second, how much would this be? Because whatever we talk about, 
what we're going to do, we have to talk about money.
    General Lowenberg. Let me be very clear at the outset in 
stating that when the States or territories use the National 
Guard for a State purpose, they pay for 100 percent of all the 
expenses of the utilization of those National Guard forces. 
There is no Federal-State match. So the Governors, as they ask 
for unambiguous authority to use the Guard in Title 32 status, 
are not asking for the Federal Government to pay for something 
for which the paramount interest lies in the State.
    There are a broad range of issues in the realm of homeland 
security, however, in which there are both State and Federal 
interests, and in which when there is a paramount Federal 
interest, it's in the national interest to use the National 
Guard, such as for airport security or border security or 
protecting DOD critical infrastructure or critical 
infrastructure for other Federal agencies.
    It is that realm in which the Governors and the Defense 
Science Board and the Adjutants General have urged Congress to 
unambiguously authorize use of the National Guard in Title 32 
status for these homeland security and defense related areas in 
which there is a paramount Federal interest, and there's a 
Federal interest in assuring that the mission is executed among 
the several States or the affected States in a consistent 
manner. So whether that's done by Federalizing the National 
Guard, including a lot of additional expenses in doing so, or 
whether it's done in Title 32 status in which the service 
itself is paid for by the Federal Government but we take full 
advantage of all existing command and control structure, so 
there are no added costs, that's really the question for 
Congress.
    Mr. Ruppersberger. One other issue, then I'm finished. The 
issue of retention and recruitment. I asked that question of 
the general, and I'd like to hear from the panel where we are, 
what we need to do. The general mentioned the issue of medical 
insurance, those types of issues.
    General Tuxill. Recruiting and retention for the National 
Guard continues to be one of our challenges. One of the things 
that I have noticed and I will let my fellow Adjutants General 
talk to this as well, but those units that we have used, that 
we have deployed, that we have done our Noble Eagle, Iraqi 
Freedom, Enduring Freedom, when they come back, they're very, 
very proud of their service. They're very proud they had the 
opportunity to be a part of the larger picture and a part of 
our global war on terror.
    And for the better part, these people that we are deploying 
and bringing home want to stay. They don't want to get out. And 
this is anecdotal information that I'm coming up with, but I'm 
watching these units. We just got a 115th Military Police 
battalion back from Iraq. They had been called up for No. 1, 
the Pentagon. They were then pulled off that and they were sent 
to Fort Stuart for duty down there under Noble Eagle. They came 
out and they were told the next thing they were going to do was 
Guantanamo, Operation Enduring Freedom. Then they finally had 
the opportunity to go to Baghdad.
    So they've done all three. Surprisingly enough, that unit 
is enjoying retention that I didn't think I would see. Now, we 
are correct, when you sign up a soldier or airman, you're 
signing up the spouse. And we need to be very, very aware of 
that.
    But these young men and women are very happy with their 
service to this Nation, and we should be very proud of them. 
But two, I think the health care is an issue, Tricare for our 
members would be great. Those things that give them incentives 
for education and other incentives for our soldiers and airmen.
    General Lowenberg. Recruiting and retention in the State of 
Washington, as I've heard in most States, is at historic highs. 
It has been for the past 4 years, predating the attacks of 
2001. What we don't know is the effects of these prolonged 
periods of mobilization and assignment overseas, and what an 
impact that will have. To this date, for shorter duration 
deployment, the retention has been the very highest among the 
units most frequently deployed. But again, we're entering an 
arena in which we have no national experience.
    On the point of medical and dental coverage, which many 
Guard men and women are unable to provide for themselves in 
their private capacity, it's only collaterally a benefits 
issue. It is first and foremost a military readiness issue.
    A disturbingly high percentage of the Army National Guard 
soldiers now deployed and currently serving in Iraq were 
delayed, there were obstacles to their assimilation into the 
training because they needed medical and primarily dental 
attention. Some of them are still awaiting deployment because 
of correctable medical and dental conditions that would have 
been obviated if they had access to the Federal Tricare 
program.
    So medical and dental coverage is a military readiness 
issue first and foremost.
    General Marty. In Texas, we've had 4 years of record 
setting recruiting. This year, we're approximately 19 percent 
ahead of where we were last year in the area of recruiting. So 
I don't see a problem. We've met all the National Guard 
Bureau's goals for strength at the Army National Guard. The Air 
National Guard seems to be steady and holding tight.
    The retention this year, we're about 2 percent lower in our 
losses than we have been in the last 10 years. So that's an 
indication that our retention is holding well.
    Now, I will tell you, we have had a test program in the 
State of Texas where I have put dedicated retention mangers in 
every Army battalion. I think this may be a reason why our 
retention is going up and our losses are going down, at least I 
hope that's the indication. But at this particular time, I 
don't think there's any panic button to push as far as the 
retaining. Our men and women are very dedicated and they are 
very loyal and very pleased to be serving a worthwhile mission 
at this particular time.
    And the amount of volunteers we have that would volunteer 
for a second tour is amazing. So I think if we do some right 
things, if we take care of some of these things, if we take 
care of the families of these deployed individuals, and work 
with the employers, I think this is going to help in the 
retention arena.
    Mr. Ruppersberger. Thank you all very much.
    Ms. St. Laurent. GAO's perspective would be that this is an 
issue that definitely needs to be carefully watched over the 
next few years, that it's probably a little too soon, and some 
of the initiatives that General Blum has underway that could 
bring more predictability to the force and establish rotation 
cycles would probably be very helpful. I think there is a 
question of how soon we can get the Guard to the level where 
they are on a more predictable schedule that's spaced out over 
one every 6 years.
    Then also I think the issue has to be watched from a skills 
perspective. As our testimony states, 92 percent of MPs have 
been deployed and 18 percent more than once. So there are 
certain skills that need to be rebalanced.
    Mr. Ruppersberger. The Chair wants to move on. One 
suggestion I want to throw out is retirees. We've gotten calls 
in our office about retirees that would like to be involved 
somehow, and a plan that could use retirees for certain desk 
work, whatever, I'm just throwing that out as a suggestion.
    Mr. Shays. If the gentleman wants to pursue that, I'd be 
happy to allow.
    Mr. Ruppersberger. Well, again, I'm putting it out to 
evaluate it. General Blum, you're still here, the retirees, and 
we've seen that in other parts of Government, people who are 
well trained, well qualified, and yet they're retired and they 
might be able to do something or have the expertise to take the 
burden off of some of our duties.
    Mr. Shays. If General Tuxill would like to respond.
    General Tuxill. If I could, thank you, Mr. Chair. What we 
have in the State of Maryland, and I can only speak for the 
State of Maryland, we call it the Maryland Defense Force. It is 
a force of professionals. Those professionals are doctors, 
lawyers, health care providers, crisis response personnel, 
chaplains, etc. And what we try to do here is, we try to use 
both the lawyers and the medical end of the house to do what we 
can for our deploying soldiers to make sure that they've got a 
good will, to make sure they are getting some good health care.
    But also what we're doing is using that in emergency 
management as a response force. So yes, sir, and we are also 
looking in the cyber world for that same retired group to take 
a look at cyberterrorism and what we could do with that defense 
force.
    Mr. Ruppersberger. Just make sure that it's beyond the age 
of 72, because a lot of the calls we're getting are over the 
age of 70. [Laughter.]
    Mr. Shays. I thank the gentleman.
    This is a very important hearing, and it is, I think, 
somewhat scratching the surface. There are so many questions we 
could ask.
    But I find myself writing the question, does the National 
Guard have an impossible task? Then I'm thinking, because they 
have to do two things, they've got to fight a war, be prepared 
to fight a war and fight a war, and then they've got to protect 
their homeland. I realize there is some synergy between the 
two, but there are clearly some differences.
    So then I think, and I know that our National Guard are 
components to a full force structure. So then I think, well, 
maybe they have the role of MPs so they don't have to take the 
hill, where our active forces may in fact have to take the hill 
and it's a different kind of training that you want constantly 
to have.
    I'm hearing our GAO say some things that you all didn't 
really, in my judgment, respond to. You made very important 
points, but they didn't respond to them. I want to say that I 
want to get a response to the idea that we say our retention is 
up, excuse me, our retention is stable, we are getting new 
enlistees. And yet, we don't have the full force structure 
within the National Guard. So that unit has to take from 
another unit.
    And that bothers me, because we haven't been working with 
each other. And I know for a fact that the equipment they have 
is hand-me-down. It may not be bad, but it's hand-me-down. They 
don't get the new airplanes, they don't get the new vehicles, 
they get the hand-me-downs, in my judgment.
    So would you first, Ms. St. Laurent, tell me the first, 
second and third point you want to make, and I want each of our 
Generals to respond.
    Ms. St. Laurent. In terms of?
    Mr. Shays. Your major points. I want you to summarize your 
major points.
    Ms. St. Laurent. I would say, near term readiness is an 
issue that needs to be looked at very carefully. We would like 
to see a plan to address that.
    On the homeland security issue, I think those requirements 
need to be defined better. And once they're defined, there's 
still a lot of analysis that needs to be done of how that's 
going to be operationalized, what kinds of training, what kinds 
of equipment are going to be needed. I don't think we're there 
yet on that.
    Mr. Shays. This is homeland security.
    Ms. St. Laurent. Right.
    Mr. Shays. Let me just throw that out for all our three 
Generals here. We were briefed that the DOD has not fully 
defined requirements, readiness standards and readiness 
measures for homeland defense and security missions that will 
lead or support. So Guard preparedness for homeland defense and 
security missions is unmeasured and unknown. That's what we've 
been told.
    Now, you also made another point that they are not fully 
staffed, correct?
    Ms. St. Laurent. Right.
    Mr. Shays. And that they then have to what?
    Ms. St. Laurent. They have to transfer personnel and 
equipment. But one other issue is the full time manning of Army 
Guard units. Although most Guardsmen are part timers, each unit 
does have some full time personnel. And the Army Guard only has 
about 15 percent, whereas the Air Guard has about 33 percent. 
The Army Guard has a plan to increase that, but even by 2012, 
they are only going to be at about 71 percent of their 
requirement.
    Those people are critical to keeping units running, 
planning the training, tracking training, tracking medical 
status readiness.
    Mr. Shays. Let's first take just the readiness issue. An 
honest assessment.
    General Marty. For the last 10 years, I've chaired the 
readiness committee in the State of Texas. When I first got 
there in 1993, out of 58 reporting entities, 54 of them met the 
readiness standards. As we decreased the full time manning, the 
readiness of those units decreased. Also the fact that the 
structures that we have in the National Guard today do not meet 
the needs that we have in today's Army.
    The majority of the forces in Texas are from an armored 
division. Of all the men and women we have deployed out of 
Texas, not one tank has been deployed, not one Bradley has been 
deployed. We've taken people out of the tanks and made them 
infantrymen or given them the M1s and have them guarding places 
throughout the United States. They have not been used in their 
capacities as armored crewmen.
    So that does affect the readiness of the organization. The 
fact that we have been manned at C3 level and below is, there's 
no way in the world we can bring that unit up to 100 percent of 
its authorized strength without going to other units. The 
minute we do that, we automatically break the other units.
    So the answer to that is, once we go through this 
transformation and we get the right type of formations that we 
can man at 90 to 100 percent, I think that's going to take care 
of some of this readiness issue. Resourcing is going to be the 
problem. In the State of Texas, the full time manning, we're 
about 40 percent of what we're authorized in our full time 
manning. That has a direct impact upon the readiness.
    Mr. Shays. Is that a cost issue or a volunteer issue?
    General Marty. This is the full time----
    Mr. Shays. Is it a matter of cost or is it a matter that 
you don't have the people?
    General Marty. It's a matter of funding.
    Mr. Shays. Thank you. General Lowenberg.
    General Lowenberg. Readiness for both homeland defense and 
homeland security, for both overseas missions and domestic 
missions is a function of articulating the requirements and 
funding to meet those requirements. Full time manning, as has 
been previously noted, is the No. 1 weakness of the Army 
National Guard. It's the No. 1 failure of the Department of 
Defense and the Department of Army.
    And as you've noted, Mr. Chairman, equipping the National 
Guard with front line equipment as part of a force funding plan 
for, in particular, the Army is something that is handicapping 
our level of readiness for both combat and domestic security 
issues. As has been noted, and you are correct, the 
requirements for employment of the National Guard for homeland 
security purposes has not yet been articulated by Northern 
Command or by the Department of Defense. When that happens, 
we're going to need to be resourced, particularly in the Army 
National Guard, to meet those homeland security needs.
    General Tuxill. Thank you, Mr. Chair.
    We are cold war construct still. And if you take a look, we 
have been funded at a level, I mimic what my fellow Adjutants 
General said. We're funded at C3. You can't expect--and that's 
minimum mission ready, that's minimum. So we end up cross-
leveling, we bring equipment in, we bring other troops in. One 
of the reasons is that if you have, let's say, an infantry 
battalion, you have X number that you're sending to basic 
infantry school, you'll have X number that are going to basic 
training, you'll have X number in school and you'll have so 
many that you will not be able to account for, for one reason 
or the other, maybe sickness.
    That means while you're funded at 82 percent or so, you've 
got X number of people that you cannot reach out and take, so 
you have to reach over and take them from another unit. You've 
already got a built-in structural deficiency for how many 
people you actually have in that battalion. You're authorized 
this many, but you only really realize a much lower number.
    General Blum right now is addressing that situation so that 
we can start having a school account, if you would, a holding 
account that does not count against the readiness. The Army has 
it, the Air Force has it. But the Guard, on the other side of 
the house, does not have it.
    As far as clearly defined homeland security requirements, 
we do not have those yet. We are right now making them up as we 
go for our various States. As far as critical infrastructure, 
what we should be doing there, one of the things that was very 
interesting to me were the amount of critical infrastructure 
plans that are out there, and denoting what critical 
infrastructure is around. In the National Capital region, 
everyone's got a dog in the fight. I think we need to ferret 
through that and come up with a requirement as to what we 
really should do.
    Mr. Shays. The challenge we have is that we have to do it 
while we're in the midst of a very real war. That makes this an 
extraordinarily difficult undertaking.
    Let me ask you, Ms. St. Laurent, to respond to what you 
heard. It sounds to me like you all are pretty much in 
agreement. Is that your sense?
    Ms. St. Laurent. I think that's very true. I think there is 
a consistent theme. In doing our work, we saw a very consistent 
pattern going to all the States that we visited, Georgia, 
Texas, Oregon and New Jersey. They all had a wide variety of 
State missions and critical infrastructure protection missions 
that they were dealing with at the same time they were getting 
ready to deploy units overseas. So I agree with the comments 
that have been made.
    Mr. Shays. Well, I would say to General Blum and General 
Love, we know as well that this is a challenge for Congress, to 
step up and make sure that we are beginning to address this. I 
think our committee will develop a very honest report about 
what Congress needs to do, what the administration needs to do, 
what Defense needs to do, and hopefully how we get there.
    I'm going to ask professional staff to ask a question or 
two, and then we're going to call it quits.
    Ms. Washbourne. Thank you, Mr. Shays.
    I have a two part question just for the Adjutants General, 
talking about readiness. Since there is no Federal or national 
readiness standard for homeland defense and security missions 
performed by the Guard, how do you judge or certify the 
readiness of the Guardsmen for your Governor in these roles? 
And how might the Federal Government begin to judge that 
readiness for homeland defense missions?
    General Lowenberg. In the State of Washington, we certify, 
to use that term, I attest to the Governor as to our readiness 
for the homeland security mission by looking at the homeland 
security strategic plan that has been developed solely in 
coordination with the Department of Homeland Security. That's 
not to say the same level of readiness or the same requirements 
would necessarily be articulated by Northern Command, as best I 
try to divine what those requirements are. They may have a 
different perspective based upon classified information that 
they have available to them that has not been shared with me, 
notwithstanding my security clearance.
    General Marty. I think it's important that we look at the 
fact that we train for war time mission, at this particular 
time our training focus is on the war on terrorism. This brings 
our soldiers and airmen up to a readiness level. There are 
skills that we train to that are transferrable that we need to 
go into the homeland security mode, we've done this for years 
and years. Even though the requirements are not defined by 
homeland security by Northern Command, we still have to 
maintain our war time skills within our organizations and our 
formations. And again, like I said, they do transfer to the 
skills that we do need when we perform either State Active Duty 
or homeland security missions.
    General Tuxill. I agree. Really the byproduct or the 
benefit to homeland security is the training that we do for 
that Federal mission. And we have many disciplines and many 
skill sets, and they are readily, as General Marty said, 
transferrable to the public sector. When you look to certify a 
full-up military police unit, you know that they're ready to do 
the job, because many of those in there are local police that 
are in that, that are already going to work in that area. 
They're just putting on a different uniform.
    Ms. Washbourne. Thank you.
    Thank you, Mr. Shays.
    Mr. Shays. Thank you. I'd like to know, is there anything 
that you basically prepared for that we didn't ask that you 
think we should have asked, or you thought we shouldn't ask but 
you know you need to answer? [Laughter.]
    Either one. In other words, is there a question I should 
have asked that we didn't that you need to answer? Is there 
anything you want to put on the record before we adjourn this 
hearing? I think we're all set then.
    General Lowenberg. Mr. Chairman, I think I speak for the 
Adjutants General in thanking you for your generosity and 
extending the time and for the particular interest you and 
other members of the committee have shown on these subjects. I 
recognize that there are a lot of questions that could be 
asked, and a lot of answers that were perhaps left unspoken. 
But I'm confident and very grateful for the interest of this 
committee.
    Mr. Shays. Thank you. We will be getting to all those 
questions, and that will be some of the informal dialog that 
occurs between all of you and our staff. It's very helpful in 
ultimately helping us make our recommendations. So I thank you 
all for your service to our country. Again, I want to thank 
General Blum and General Love for their participation by 
listening to what all of you had to say.
    I'm going to adjourn this hearing and hopefully get a 2:30 
flight. Thank you.
    [Whereupon, at 1:45 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [The prepared statements of Hon. Katherine Harris and Hon. 
Carolyn B. Maloney follow:]

[GRAPHIC] [TIFF OMITTED] T5597.206

[GRAPHIC] [TIFF OMITTED] T5597.207

[GRAPHIC] [TIFF OMITTED] T5597.208

[GRAPHIC] [TIFF OMITTED] T5597.209

                                 <all>

</pre></body></html>
